<html>
<title> - TRANSIT ZONE OPERATIONS: CAN WE SUSTAIN RECORD SEIZURES WITH DECLINING RESOURCES?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
TRANSIT ZONE OPERATIONS: CAN WE SUSTAIN RECORD SEIZURES WITH DECLINING 
                               RESOURCES?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 26, 2006

                               __________

                           Serial No. 109-198

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
30-898                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
------ ------

                      David Marin, Staff Director
                Lawrence Halloran, Deputy Staff Director
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
PATRICK T. McHenry, North Carolina   ELIJAH E. CUMMINGS, Maryland
DAN BURTON, Indiana                  BERNARD SANDERS, Vermont
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
GIL GUTKNECHT, Minnesota             DIANE E. WATSON, California
STEVEN C. LaTOURETTE, Ohio           LINDA T. SANCHEZ, California
CHRIS CANNON, Utah                   C.A. DUTCH RUPPERSBERGER, Maryland
CANDICE S. MILLER, Michigan          MAJOR R. OWENS, New York
VIRGINIA FOXX, North Carolina        ELEANOR HOLMES NORTON, District of 
JEAN SCHMIDT, Ohio                       Columbia

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
              Marc Wheat, Staff Director and Chief Counsel
                           Malia Holst, Clerk
                     Tony Haywood, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 26, 2006...................................     1
Statement of:
    O'Gara, James F.X., Deputy Director, Supply Reduction, Office 
      of National Drug Control Policy; Rear Admiral Jeffrey 
      Hathaway, Director, Joint Interagency Task Force South; 
      General Michael Kostelnik, Assistant Commissioner, Customs 
      and Border Protection, Office of Air and Marine; Michael 
      Braun, Chief of Operations, Drug Enforcement 
      Administration; Rear Admiral Wayne Justice, Assistant 
      Commandant for Enforcement and Incident Management, U.S. 
      Coast Guard; and Rear Admiral Alvaro Echandia, Chief of 
      Naval Intelligence [N2], Colombian Navy....................    10
        Braun, Michael...........................................    36
        Echandia, Alvaro.........................................    60
        Hathaway, Jeffrey........................................    19
        Justice, Wayne...........................................    52
        Kostelnik, Michael.......................................    48
        O'Gara, James F.X........................................    10
Letters, statements, etc., submitted for the record by:
    Braun, Michael, Chief of Operations, Drug Enforcement 
      Administration, prepared statement of......................    38
    Echandia, Rear Admiral Alvaro, Chief of Naval Intelligence 
      [N2], Colombian Navy, prepared statement of................    62
    Hathaway, Rear Admiral Jeffrey, Director, Joint Interagency 
      Task Force South, prepared statement of....................    21
    Justice, Rear Admiral Wayne, Assistant Commandant for 
      Enforcement and Incident Management, U.S. Coast Guard, 
      prepared statement of......................................    54
    Kostelnik, General Michael, Assistant Commissioner, Customs 
      and Border Protection, Office of Air and Marine, prepared 
      statement of...............................................    50
    O'Gara, James F.X., Deputy Director, Supply Reduction, Office 
      of National Drug Control Policy, prepared statement of.....    13
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     5
    Watson, Hon. Diane E., a Representative in Congress from the 
      State of California, prepared statement of.................    94


TRANSIT ZONE OPERATIONS: CAN WE SUSTAIN RECORD SEIZURES WITH DECLINING 
                               RESOURCES?

                              ----------                              


                       WEDNESDAY, APRIL 26, 2006

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:52 p.m., in 
room 2203, Rayburn House Office Building, Hon. Mark E. Souder 
(chairman of the subcommittee) presiding.
    Present: Representatives Souder, Foxx, Cummings, Watson, 
and Ruppersberger.
    Staff present: Marc Wheat, staff director & chief counsel; 
Pat DeQuattro, congressional fellow; Malia Holst, clerk; Tony 
Haywood, minority counsel; and Cecella Morton, minority office 
manager.
    Ms. Foxx [presiding]. The subcommittee will come to order. 
We can't control when we are asked to vote, as you know.
    Chairman Souder has been called to another committee for a 
little while, and he asked me if I would preside, and I would 
like to read his opening statement for him.
    Good afternoon and thank you all for coming. For the 3rd 
straight year our joint service, interagency and multinational 
forces in the transit zone have seized and disrupted a record 
amount of cocaine. A critical element of the strategy to 
disrupt our domestic illicit drug market focuses U.S. 
interdiction efforts on seizing cocaine and other drugs bound 
for the United States from South America in the transit zone.
    The transit zone is a 6 million square mile area that 
encompasses Central America, Mexico, the Caribbean Sea, the 
Gulf of Mexico, and the Eastern Pacific Ocean. Transit zone 
seizures and disruptions in 2005 amounted to 252 metric tons of 
cocaine, compared to 219 metric tons in 2004 and 176 metric 
tons in 2003.
    I am very familiar with the challenges associated with 
interdicting illicit drugs as they flow through this vast area. 
My subcommittee has focused extensively on narcotics smuggling 
activities across our land and maritime borders, and over the 
past year I have been able to visit many agencies and 
organizations that support these efforts, including recent 
briefings in Colombia, at Operation Panama Express, at Joint 
Interagency Task Force South in Key West, and the Coast Guard 
Armed Helicopter Squadron in Jacksonville. I am very aware of 
the critical roles performed by the agencies represented here 
today in drug interdiction and homeland security.
    All of our Federal agencies need a special ``well done'' 
from Congress for the record cocaine seizures in 2005. Through 
effective casework and coordination, the amount of actionable 
intelligence we now develop exceeds our interdiction 
capabilities in the transit zone. In other words, the Federal 
Government knows of specific boatloads of drugs heading north 
that we cannot intercept because of lack of interception assets 
in the Caribbean and the Eastern Pacific. The intelligence 
breakthrough is a recent development resulting from the very 
successful efforts of Operation Panama Express, an interagency, 
intelligence-driven program managed by the Departments of 
Justice and Homeland Security, and the continued success of the 
Drug Enforcement Administration. Due to their coordinated 
efforts, Joint Interagency Task Force [JIATF] South now has 
improved insight into where, when and how much cocaine will be 
smuggled through the transit zones.
    Transit zone interdiction is a team effort that relies on 
the successful execution of several steps in an interdiction 
continuum, including the collection and dissemination of 
actionable intelligence, the detection and monitoring of 
suspect vessels, and the physical interdiction of those 
vessels. Each agency joining us today plays a critical role in 
this team effort that supports transit zone interdictions.
    I look forward to this afternoon's hearing to review our 
recent string of successes in the transit zone and discuss how 
we can improve upon these results. I have several concerns 
about our drug interdiction programs based on the recently 
released budget and the limited information that has thus far 
been shared with Congress by the administration. Let me now 
flag some concerns which worry Members of Congress.
    The first and most alarming issue hidden in this year's 
budget proposal is the administration's attempt to categorize 
the drug interdiction mission as a ``non-homeland security'' 
mission. When Congress created the Department of Homeland 
Security in 2002, it combined some of the most important drug 
interdiction agencies in the Federal Government. While the 
Coast Guard's homeland security missions are not new, they were 
statutorily defined in Section 888 of the Homeland Security Act 
of 2002 (Public Law 107-296) as follows: ports, waterways, and 
coastal security; drug interdiction; migrant interdiction; 
defense readiness; and other law enforcement.
    Contrary to this statutory definition, the administration's 
2007 budget request, as noted in the Coast Guard budget, 
categorizes ``Illegal Drug Interdiction'' and ``Other Law 
Enforcement'' missions as ``non-Homeland Security'' missions. 
This proposed change clearly runs contrary to the organic 
statute establishing DHS. How did the lawyers at OMB and ONDCP 
sign off on this abdication of duty? I look forward to hearing 
an explanation from our ONDCP witness on how this change has 
come about, why, and what ONDCP tried to do to stop it.
    A second issue to be discussed today is in the area of 
transit zone interdiction assets. As I mentioned, we now know 
when drug smuggling events will occur in the transit zone, but 
we don't have the assets to respond. This is especially true of 
Maritime Patrol Aircraft [MPA]. The previous U.S. Interdiction 
Coordinator, Roger Mackin, stated in July 2004 that ``MPA are 
the linchpin of maritime interdiction operations and play a key 
role in virtually every significant maritime endgame.'' Among 
the various aircraft capable of patrolling in the transit zone, 
the most important are the P-3 airplanes, which have high 
operational capabilities and a broad array of sensors used in 
detecting and tracking drug smugglers. These aircraft are old 
and need repair. The Defense Department has already pulled its 
P-3s from drug interdiction use, leaving only the Customs and 
Border Protection P-3s in the transit zone. These Customs and 
Border Protection airplanes won't be able to carry out this 
mission indefinitely without an overhaul or replacement.
    So why, then, does the administration propose to terminate 
the ``service life extension program'' mandated by Congress for 
the P-3s, and spend all of the CBP Air's procurement funds on 
small helicopters for the Border Patrol? These helicopters may 
be fine for nabbing illegal immigrants, but they cannot replace 
the P-3s over the open water in the Caribbean and in the 
Eastern Pacific. Where is the plan to repair or replace the P-
3s? Within a few years won't we be blind at sea when trying to 
find the drug traffickers?
    A third issue which we discussed at this same hearing a 
year ago is the idea of a maritime refueling vessel to improve 
U.S. drug interdiction capabilities in the transit zone. On two 
occasions this past year, the House of Representatives has 
voted in favor of procuring a drug interdiction refueling 
vessel. Amendment No. 10 to H.R. 889, the Coast Guard and 
Maritime Transportation Act of 2005, was agreed to by voice 
vote on September 16, 2005, having received the support of 
leadership and the Committee on Transportation Infrastructure. 
On July 19, 2005, a similar amendment was agreed to by voice 
vote and included in H.R. 2601, the Foreign Relations 
Authorization Act, Fiscal Years 2006 and 2007.
    Members of Congress are very aware and concerned about the 
flow of drugs bound for the United States, and recognize the 
unique challenges and vulnerabilities associated with U.S. 
interdiction efforts in the transit zone. I am interested in 
getting an updated opinion from today's panel on whether a 
maritime oiler vessel remains a needed capability in the 
transit zone.
    A fourth issue to be addressed at this hearing is the 
impact of transit zone smuggling on the drug flow through 
Mexico and Central America. Last year the DEA testified that 90 
percent of the cocaine smuggled into the United States comes 
across the southwest border. JIATF South drug tracks show that 
Mexico, Belize and Guatemala are the transshipment points for 
most drugs flowing from South America. Recent staff briefings 
in Mexico and Guatemala indicate these drug shipments travel 
through the maritime routes or by airplane into Mexico and 
Central America and are then taken over land into the United 
States. What impact has record seizures had on the flow of 
drugs across the southwest border, and what steps are being 
taken to address this next stop in the flow of illicit drugs?
    Last, we look forward to discussing recent developments in 
the transit zone involving the Colombian Navy. A strong 
Colombian interdiction effort, along with robust and effective 
eradication and inland seizure efforts are critical to a 
successful illicit drug control strategy. In a layered system 
of defense, it makes good sense to seize drugs in or near the 
source country, rather than out in the middle of the transit 
zone. During my visit to Colombia last month, I was told that 
through our strong partnership and cooperation, the Colombian 
Navy has achieved record results in 2005, seizing nearly 100 
metric tons of cocaine. Additionally, the U.S. Congress 
recently identified funds to purchase and outfit several 
additional close-in maritime patrol aircraft for the Colombian 
Navy. I look forward to discussing these successful efforts and 
the benefits of a closely coordinated U.S.-Colombian drug 
interdiction effort.
    These are serious questions that Congress needs to ask as 
it starts work on the annual appropriations bills.
    Today we have a panel of very experienced witnesses to help 
answer these and other questions posed by the subcommittee. We 
are pleased to welcome Mr. James O'Gara, Deputy Director of 
Supply Reduction, ONDCP; Rear Admiral Jeffrey Hathaway, 
Director, Joint Interagency Task Force South; Mr. Michael 
Braun, Director of Operations, Drug Enforcement Administration; 
Rear Admiral Wayne Justice, Assistant Commandant for 
Enforcement and Incident Management, U.S. Coast Guard; Major 
General Michael Kostelnik, USAF (ret.), Director of the Office 
of Air and Marine, Customs and Border Protection; and Rear 
Admiral Alvaro Echandia, Chief of Naval Intelligence, Colombian 
Navy.
    We look forward to your testimony and insight into this 
important topic.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T0898.001
    
    [GRAPHIC] [TIFF OMITTED] T0898.002
    
    [GRAPHIC] [TIFF OMITTED] T0898.003
    
    Ms. Foxx. I would now like to recognize Mr. Cummings for an 
opening statement.
    Mr. Cummings. Thank you very much, Madam Chairlady.
    The past 3 years have seen record amounts of illegal drugs 
seized through interagency drug interdiction efforts in the 
vast transit zone, that separates the primary source countries 
in South America from communities throughout the United States 
where drugs inflict such immense harm.
    Improved access, actionable intelligence regarding drug 
shipments entering the transit zone are largely the result of 
the Interagency Panama Express Initiative, has been a major 
contributing factor. Other factors include the deployment of 
armed helicopters capable of stopping the go-fast boats that 
have proved so elusive in the high level or bilateral 
cooperation that has been achieved between the United States 
and the Colombian Government.
    Serious concerns have been raised concerning the adequacy 
of interdiction assets, including fixed-wing maritime patrol 
aircraft, ships, helicopters and radars. Without such resources 
it will be impossible to capitalize on the actionable 
intelligence we are developing. Indeed, as we will hear today, 
it is already the case that we have actionable intelligence on 
more drug shipments than our existing interdiction resources 
will enable us to pursue.
    Our witnesses will provide their perspectives on the best 
way to address the issue of declining resources, so that we 
achieve maximum success in stopping the flow of drugs into the 
United States through the transit zone.
    As we address these matters, it is imperative that we look 
beyond the statistics on drug seizures and keep one eye trained 
on the ultimate question, namely, are we keeping drugs off the 
streets of America, and reducing drug consumption and its 
domestic consequences?
    According to the DEA, Colombia continues to be the source 
of roughly 75 percent of the world's supply of cocaine, and 
nearly all of the cocaine consumed in the United States. 
Although surveys show that overall use of illicit drugs among 
youth has declined in recent years, we know that this is a 
reflection of reduced use of marijuana, the principal target of 
U.S. drug prevention efforts. The same surveys show that use of 
cocaine, a major focus of U.S. supply reduction efforts, has 
not declined.
    The picture concerning the availability of cocaine in the 
United States, as reflected in estimates of drug price 
impurity, is at best hazy. Over the past year and a half ONDCP 
has supplied Congress with two sets of estimates from different 
sources. The first, a 100 plus page report, compiled for ONDCP 
by the Rand Drug Policy Research Center, shows a steady 
downward trend in the price of cocaine from 1981 through the 
second quarter of 2003, marked by occasional short-lived 
spikes. The second, a well-publicized three-page document, 
consisting of a cover and two graphs, covers a much shorter 
period of time, and indicates that the retail price of cocaine 
was on the rise from February to September 2005. Unlike the 
Rand report, which was posted on ONDCP's Web site without 
fanfare in February 2005, the methodology used to support the 
more recent estimates is unexplained. And outside analysts have 
noted that the two estimates are impossible to reconcile.
    At the same time, despite extensive and enormously 
expensive aerial eradication efforts in Colombia, recent U.S. 
estimates show that coca cultivation in Colombia is not 
shrinking, but it is expanding.
    The hearing therefore raises some important questions. 
First, what can Congress do to ensure that our interdiction 
efforts in the transit zone are optimally effective and 
efficient, and is the administration dedicated to making them 
so?
    Second, are anti-drug efforts taking a back seat to anti-
terror efforts within the departments and agencies that 
implement U.S. interdiction strategy? Are the two missions 
complementary, as we like to believe, or are they competing? 
More fundamentally, I think we need to ask what level of 
success in interdicting illegal drug shipments in the transit 
zone will be necessary to cripple the drug producers and drug 
transporters who are flooding our streets with illegal drugs? 
And further, is it realistic to expect that proposals advocated 
by our witnesses today will achieve this level of success if 
enacted?
    This committee has thoroughly documented studies that show 
concretely that providing access to treatment reduces drug 
consumption and related harms, including criminal activity and 
recidivism, unemployment, poor health and behaviors associates 
with these, the spread of HIV/AIDS, hepatitis and other 
dangerous, communicable diseases. One such study is the Steps 
to Success Treatment Outcome Study, conducted in my own city of 
Baltimore by a Blue Ribbon Scientific Panel convened by the 
Baltimore Substance Abuse Systems, Inc.
    The President's drug budget for fiscal year 2007 reflects a 
continuing trend downward, de-emphasizing prevention and 
treatment in favor of supply reduction efforts beyond our 
borders and shores. Today's hearing bears directly on the 
question of whether that ongoing shift in the allocation of 
limited anti-drug resources makes sense.
    We cannot afford to address the issues of interdiction 
effectiveness and adequacy of interdiction assets in a vacuum. 
Rather, we must address them in the context of evaluating 
whether they are contributing to success in achieving the 
bottom-line objective of our national drug control security, 
namely, reducing drug consumption, crime and related harms in 
communities throughout these United States.
    In closing, I want to thank our witnesses for appearing 
before us today, and I want to thank the men and women and all 
the Federal agencies represented here for their dedication to 
the mission of reducing the toll of illegal drug use on 
American society, particularly those on the front line who put 
their lives at risk every day for our benefit.
    I also want to extend a warm welcome to Admiral Echandia, 
who will testify on behalf of the Colombian Navy.
    I look forward to today's testimony, and with that, Madam 
Chairlady, I yield back.
    Ms. Foxx. Thank you, Mr. Cummings.
    A couple of procedural matters we will deal with. I ask 
unanimous consent that all Members have 5 legislative days to 
submit written statements and questions for the hearing record, 
and that any answers to written questions provided by the 
witnesses also be included in the record. Without objection, it 
is so ordered.
    I also ask unanimous consent that all exhibits, documents 
and other materials referred to by Members and the witnesses 
may be included in the hearing record and that all Members be 
permitted to revise and extend their remarks. Without 
objection, it is so ordered.
    I have already mentioned the names of the panel members and 
their positions in my opening statement, so I won't repeat them 
here. I will recognize each person as he speaks, but would the 
witnesses please come forward and remain standing?
    It is our standard practice to ask witnesses to testify 
under oath. If you will raise your right hands, I will 
administer the oath to you.
    [Witnesses sworn.]
    Ms. Foxx. Let the record show that the witnesses answered 
in the affirmative.
    Mr. O'Gara, thank you for joining us. You are recognized 
for 5 minutes.

   STATEMENTS OF JAMES F.X. O'GARA, DEPUTY DIRECTOR, SUPPLY 
REDUCTION, OFFICE OF NATIONAL DRUG CONTROL POLICY; REAR ADMIRAL 
JEFFREY HATHAWAY, DIRECTOR, JOINT INTERAGENCY TASK FORCE SOUTH; 
GENERAL MICHAEL KOSTELNIK, ASSISTANT COMMISSIONER, CUSTOMS AND 
  BORDER PROTECTION, OFFICE OF AIR AND MARINE; MICHAEL BRAUN, 
  CHIEF OF OPERATIONS, DRUG ENFORCEMENT ADMINISTRATION; REAR 
ADMIRAL WAYNE JUSTICE, ASSISTANT COMMANDANT FOR ENFORCEMENT AND 
INCIDENT MANAGEMENT, U.S. COAST GUARD; AND REAR ADMIRAL ALVARO 
   ECHANDIA, CHIEF OF NAVAL INTELLIGENCE (N2), COLOMBIAN NAVY

                   STATEMENT OF JAMES O'GARA

    Mr. O'Gara. Thank you, Chairwoman Foxx, and Ranking Member 
Cummings. I would ask, with the committee's permission, to 
incorporate my statement into the record, and I will just read 
a brief oral statement.
    On behalf of Director John Walters, I am honored to appear 
here before you today to discuss drug interdiction in the 
transit zone. Before I proceed, I want to thank this committee 
for consistently supporting the President's National Drug 
Control Strategy, which has been a bipartisan, bicameral 
success. The strategy harnesses the mutually reinforcing power 
of drug treatment, prevention, law enforcement and drug 
interdiction. It is my view, and more importantly, it is the 
President's view, that these things work best when they work 
together.
    As Ranking Member Cummings indicated in his opening 
statement, we know that drug treatment reduces crime, it 
reduces related social consequences and morbidity. As 
supporters of drug courts are well aware, law enforcement 
diverts users into drug treatment, makes the system work more 
efficiently by giving providers leverage over the clients that 
they serve in drug treatment. Drug treatment narrows the 
problem for law enforcement by shrinking the market for illegal 
drugs. Interdiction, likewise, shrinks the amount of drugs 
available on our streets, and can force periodic shortages that 
push addicts into detox. Prevention programs are affected by 
law as well. They work best in a climate where law breaking is 
punished and where young people are discouraged from ever 
trying illegal drugs in the first place.
    Our balanced strategy makes sense and it is working. Drug 
use has dropped for the 4th straight year, down 19 percent 
among 8th, 10th and 12th graders, and that includes marijuana, 
but also some of the psychedelic drugs like LSD and MDMA. This 
is important work, and this Congress and this subcommittee have 
been key partners in sustaining the bipartisan consensus that 
is the foundation for what we do, including the international 
efforts that we'll discuss today.
    The interagency leaders that you see here--and I am sure 
our guest from Colombia as well--all appreciate the opportunity 
to update the subcommittee on the progress to date, as well as 
the unique and changing environment that faces our 
interdictors.
    What they have accomplished has been little short of 
amazing. So far this year our drug interdiction forces in the 
transit zone, under the able leadership of Admiral Jeff 
Hathaway here to my left, JIATF South have seized and disrupted 
more than 60 metric tons of cocaine headed to the U.S. shores. 
That represents 10 percent of Colombia's annual productive 
capacity.
    This achievement, as the title of your hearing alludes to, 
follows three successive record-breaking years of cocaine 
seizures and disruptions in the transit zone.
    In the source zone, meanwhile, the Government of Colombia 
has significantly upped the ante for traffickers, reporting 
2005 seizures of more than 150 metric tons of cocaine, a 
single-year record, and more than double the previous year's 
total. Let's put that in perspective. 252 metric tons seized in 
the transit zone, 400 tons when the Government of Colombia 
seizures are factored in, from a country whose productive 
capacity, even using our improved estimation process, for 2005 
was 645 metric tons.
    It wasn't always like this. During the late 1980's and the 
early 1990's, in the wake of drug control first becoming a 
national security mission, the Defense Department darkened the 
skies, as they say, with detection and monitoring assets. 
Seizures followed, but in nothing like the levels achieved by 
today's interagency team of DOD, the Coast Guard, Customs and 
Border Protection and the Drug Enforcement Administration, not 
to mention allied nations including France, the Netherlands, 
the U.K. and Canada. Today we are getting more bang for our 
maritime patrol aircraft buck than ever before.
    Why? Better intelligence, what Admiral Hathaway calls the 
crown jewel of our program. Intelligence has been a critical 
enabler with crucial contributions from DEA, the FBI, the 
Bureau of Immigration and Customs Enforcement. Intelligence has 
improved not only on the collection side, but again, to refer 
to JIATF, it is our capacity to fuse that intelligence and 
disseminate it to a large number of end users in a secure 
manner, in a timely fashion.
    We face challenges as we look to the future. You will hear 
about some of them today, and we look forward to working with 
the Congress to address and resolve them. Maritime patrol 
aircraft and the Coast Guard and U.S. Navy ships have been 
vital to enabling us to act on the intelligence we receive. 
Interdiction in the transit zone is an administration priority, 
and we will continue to work diligently with U.S. force 
providers and allied nations to ensure that JIATF receives the 
appropriate support.
    Challenges and change are a constant in this business as 
traffickers react to what we do and try to ferret out 
vulnerabilities, and Mike Braun will speak to this in more 
detail.
    Thank you again for your time and for the opportunity to 
testify.
    [The prepared statement of Mr. O'Gara follows:]

    [GRAPHIC] [TIFF OMITTED] T0898.004
    
    [GRAPHIC] [TIFF OMITTED] T0898.005
    
    [GRAPHIC] [TIFF OMITTED] T0898.006
    
    [GRAPHIC] [TIFF OMITTED] T0898.007
    
    [GRAPHIC] [TIFF OMITTED] T0898.008
    
    [GRAPHIC] [TIFF OMITTED] T0898.009
    
    Ms. Foxx. Thank you.
    Rear Admiral Hathaway, thank you for joining us. You are 
recognized now for 5 minutes.

                 STATEMENT OF JEFFREY HATHAWAY

    Admiral Hathaway. Madam Chairwoman and Mr. Cummings, it is 
good to see you again. As I appeared before this subcommittee 
last year I thought that I would take just a few moments to 
characterize what happened during that year in JIATF South 
since we last met.
    I bring to you today the greetings of General John 
Craddock, the U.S. Southern Commander. I am the Director of a 
very unique national task force, but I also sit before you 
today as the Department of Defense witness as well.
    Since I appeared before you last year, JIATF South had the 
pleasure of evacuating Key West for three hurricanes. We 
suffered severe damage, and have recovered from that damage, I 
can happily report, that was put upon us by Hurricane Wilma. We 
have added a very important international liaison officer from 
the country of Spain, who wears the uniform of the Guardia 
Civil, who is going to be able to give us new critical 
intelligence about increasing amounts of cocaine that are 
flowing into the European markets, being trafficked by the same 
organizations that are bringing cocaine to the United States 
today.
    We have added three Tactical Analysis Teams in various 
countries in our joint operating area, to be able to bring us 
faster and in more quantity, very critical counter-drug 
information.
    We have assigned LNOs to DEA's Special Operations Division. 
We have recently added a JIATF member to the Organized Crime 
Drug Enforcement Task Force in Puerto Rico, both in the spirit 
of Department of Defense, working in cooperation with law 
enforcement.
    We have solidified over the last year the return of U.S. 
Air Force E-3 AWACS aircraft. Why is that important? They have 
been able to take over the primary role of detection and 
monitoring in support of Colombia's Airbridge Denial Program, 
and thus allowing me to move very important Customs and Border 
Protection P-3 aircraft, that had been doing that job, out into 
the maritime region, where, as has already been stated, we have 
a lack of persistent maritime surveillance.
    We have had, during the last year, on three different 
occasions, Colombian Navy assets operating under the tactical 
control of Joint Interagency Task Force South. We are working 
closer than ever with our Colombian colleagues, and evidence of 
that is my good friend here today, Rear Admiral Echandia, who 
will speak to that, I am sure.
    Why is that important? It means that we are truly 
synchronizing operations with our international partners that 
have the capability to be able to work with us. In fact, one of 
those Colombian frigates is under JIATF South tactical control 
today as I sit before you.
    We all grieved at the loss of three U.S. naval aviators, 
whose helicopter crashed in the Eastern Pacific on a pre-dawn 
morning about a week before Christmas last year, while they 
were prosecuting a counter-drug case.
    But we closed calendar year 2005 with the seventh 
consecutive record year in terms of cocaine disruptions, which 
disruptions account for seizures and actual destruction of 
drugs. The last 2 years, 2004, 2005, were remarkable years of a 
cooperative effort by not only all the organizations and 
agencies represented at this table, but others that are not 
here today.
    Madam Chairwoman, I will stop at that point, and I will 
welcome your questions in the next few minutes.
    [The prepared statement of Admiral Hathaway follows:]

    [GRAPHIC] [TIFF OMITTED] T0898.010
    
    [GRAPHIC] [TIFF OMITTED] T0898.011
    
    [GRAPHIC] [TIFF OMITTED] T0898.012
    
    [GRAPHIC] [TIFF OMITTED] T0898.013
    
    [GRAPHIC] [TIFF OMITTED] T0898.014
    
    [GRAPHIC] [TIFF OMITTED] T0898.015
    
    [GRAPHIC] [TIFF OMITTED] T0898.016
    
    [GRAPHIC] [TIFF OMITTED] T0898.017
    
    [GRAPHIC] [TIFF OMITTED] T0898.018
    
    [GRAPHIC] [TIFF OMITTED] T0898.019
    
    [GRAPHIC] [TIFF OMITTED] T0898.020
    
    [GRAPHIC] [TIFF OMITTED] T0898.021
    
    [GRAPHIC] [TIFF OMITTED] T0898.022
    
    [GRAPHIC] [TIFF OMITTED] T0898.023
    
    [GRAPHIC] [TIFF OMITTED] T0898.024
    
    Ms. Foxx. Thank you very much.
    Mr. Braun, thank you for joining us. You are also 
recognized for 5 minutes.

                   STATEMENT OF MICHAEL BRAUN

    Mr. Braun. Thank you, Madam Chairwoman, Ranking Member 
Cummings. Thank you for the opportunity to testify on the 
transit zone through which a vast majority of drugs are 
destined for the United States.
    I spent a great deal of time on the ground in South and 
Central America in the mid 1980's to mid 1990's, leading teams 
of specially trained and equipped DEA agents working shoulder 
to shoulder with our host nation counterparts on enforcement 
and interdiction operations. We were responsible for seizing 
massive amounts of cocaine and heroin at remote clandestine 
laboratories, as well as clandestine airstrips. We were also 
involved in seizing large loads of drugs from some of the first 
go-fast boats that the traffickers threw at us. We had far 
greater resources during that period than we have today, but we 
are seizing far greater quantities of drugs today than we were 
during those operations.
    How is that possible? It really boils down to three things. 
First, far greater intelligence, especially human intelligence, 
is being collected by the DEA and other Federal law enforcement 
agencies, and shared quickly with our military through JIATF 
South.
    Second, far greater levels of cooperation between the U.S. 
interagency community that supports our Nation's drug 
interdiction and enforcement efforts in this part of the world. 
I would like to mention here as well that we are experiencing 
tremendous levels of cooperation with most of our host nation 
counterparts, and we have no greater ally in this fight than 
the country of Colombia, represented by Admiral Echandia today.
    Third, an enhanced by JIATF South to ingest multi-source 
intelligence from law enforcement and the intelligence 
community, and to quickly fuse and assess that intelligence and 
coordinate the successful intervention by U.S. military and law 
enforcement assets. In essence, we have learned over the years 
to fight smarter with less. That is the good news story and 
something that all of us at this table are very happy and proud 
of. I have 32 years of experience in this business serving at 
the local, State and now Federal levels of law enforcement. I 
have never seen cooperation this good.
    With that said, there are some things that nag me. Major 
drug trafficking organizations are not burdened by bureaucracy. 
They can turn on a dime and often do. We are seeing signs that 
major syndicates may be shifting on us once again back to the 
air, we do not believe in a big way at this point. The real 
threat remains out on the water, but we are seeing it as 
depicted in some of the photographs that are in this room. It 
is best illustrated in these photographs, I believe, in an area 
called the aircraft graveyard or bone yard, in a very remote 
area of the Petan in Guatemala, which borders the Mexico 
border. Most of these planes were filled with drugs that were 
ultimately destined for the United States.
    I am sure you are aware of the DC-9 jet that recently 
landed in the Yucatan area of Mexico, laden with 5.6 tons of 
cocaine. That flight originated from Venezuela. Everyone at 
this table is working hard to counter that threat, but it is 
never easy.
    What also concerns me is something I am seeing throughout 
Central America and the Caribbean, weak economies and even 
weaker institutions. That is a recipe for disaster, considering 
that roughly 90 percent of the drugs flowing into our country 
from South America transit Central America. The leaders of the 
major drug syndicates are exploiting this situation, and they 
have hundreds of millions of dollars to do it, to corrupt all 
levels of Government, including law enforcement, prosecutors, 
judges and even longstanding military institutions, and that 
presents us with some very unique challenges. Factor into that 
equation the drugs-terrorism dimension, and we have even more 
to be concerned about.
    I mentioned earlier the unprecedented levels of cooperation 
between all of us at this table and the thousands of coworkers 
and colleagues we represent. There is no greater example of 
that than what we are now doing and experiencing in the 
interagency drug flow prevention strategy. At the direction of 
Administrator Karen Tandy, the DEA reached out to the 
interagency community to determine if there was more that we 
could do to disrupt the flow of drugs, money and chemicals 
between the source countries and the United States. We all got 
together, assessed the simple question, a challenge really, 
from every possible angle, and we came up with some very 
innovative ideas that had not been tried in the past. We have 
incorporated those ideas in two recent operations, and I 
believe we are all surprisingly impressed with the results.
    We know that we caused significant disruption and headaches 
for the major syndicates and the smuggling infrastructures that 
support their operations. Suffice it to say that we know that 
the traffickers postponed or canceled their operations, 
modified methods of conveyance, varied smuggling routes and 
jettisoned loads, all of which cost them time and money, and 
most important, made them even more vulnerable to law 
enforcement action.
    Our two greatest partners in this strategy, by the way, are 
JIATF South and CBP. I would be happy to team up with them and 
others and provide you with a classified briefing on this 
strategy and the results of our first two operations whenever 
you would like.
    Madam Chairwoman and esteemed members of the committee, the 
one thing that the world's most notorious drug traffickers fear 
the most is U.S. justice. I would like for you and the 
committee to know that you have DEA's continued commitment to 
identify, investigate and bring to justice the world's most 
notorious drug trafficking syndicates.
    Thank you for the opportunity to testify today, and I 
welcome questions.
    [The prepared statement of Mr. Braun follows:]

    [GRAPHIC] [TIFF OMITTED] T0898.025
    
    [GRAPHIC] [TIFF OMITTED] T0898.026
    
    [GRAPHIC] [TIFF OMITTED] T0898.027
    
    [GRAPHIC] [TIFF OMITTED] T0898.028
    
    [GRAPHIC] [TIFF OMITTED] T0898.029
    
    [GRAPHIC] [TIFF OMITTED] T0898.030
    
    [GRAPHIC] [TIFF OMITTED] T0898.031
    
    [GRAPHIC] [TIFF OMITTED] T0898.032
    
    [GRAPHIC] [TIFF OMITTED] T0898.033
    
    [GRAPHIC] [TIFF OMITTED] T0898.034
    
    Ms. Foxx. Thank you, Mr. Braun.
    Major General Kostelnik, thank you for joining us. You are 
recognized for 5 minutes.

                 STATEMENT OF MICHAEL KOSTELNIK

    General Kostelnik. Thank you, Madam Chairman, Congressman 
Cummings. It is a pleasure to be here representing U.S. Customs 
and Border Protection to talk about our focus in the southeast 
region on the counternarcotics part of the transit zone.
    As I think you all know, our organization is about 3-years-
old, and are completing a fairly historic merger of various 
affiliated activities, and now as our focus is on the Secure 
Border Initiative of the administration, I want to make it 
clear that our emphasis remains dedicated in the southeast 
region. As a matter of fact, Admiral Hathaway has talked about 
how important the P-3s are in this overall mission in the 
transit zone, and we are pleased that 2005 was a banner year 
for us.
    We were very active with our 16 aircraft. We were able to 
fly our 7,200-hour commitment, and along with the rest of the 
JIATF South team, resulted in remarkable results last year.
    The P-3 fleet this year, unfortunately, had some grounding 
problems, and about a month ago we grounded our P-3s. The 
aircraft are in many cases 35 to 40-years old. They have in 
many cases 35,000 to 37,000 hours of flying time, and as the 
chairman's comments pointed out, it is clearly time for some 
attention. The grounding story was a good news one in the fact 
that the ongoing inspections we have were able to identify 
cracks in the leading edges, bathtub fittings of the wing, that 
we are able to fix. In fact, in a fairly quick time we have 
returned now almost half of our fleet back to flight, and while 
it will be a challenge for us to fly the same amount of flying 
time that we did last year, we are certainly back on track and 
have already produced some reasonable results with the 8 
aircraft that we have already returned to flight. By the end of 
the summer we expect to have another 6 aircraft up, and that 
would put us back into our normal operation situation, where 
the bulk of the aircraft are flying, and 2 aircraft are down in 
maintenance.
    Our long-term vision, although focused on the border 
security and all on just the southwest border--there is so much 
in the news today--but the northwest border and the coastal 
regions as well. Our focus remains focused in this transit area 
on the anti-narcotics area. Not only are we putting these 
things into our long-range strategic plan, we are in the 
process of increasing our service life extension activities on 
the P-3 aircraft. Fortunately, due to the foresight of 
Congress, we have investment money in 2006, and plans to 
transition this into 2007 to create this summer a prototype 
program to start dealing with the aging issues to ensure that 
we can fly the P-3s for the foreseeable future.
    We feel this is a prudent thing to do, and these aircraft 
and their sensors are very much attuned to the mission we have, 
and these are the things we have in our future.
    At the same time, we have other assets in the southeast 
region dedicated to this activity, both aircraft and marine 
units, more closely associated with the coastal regions and the 
Caribbean. Over the next several years we do intend to 
recapitalize, improve these capabilities as well. We are 
bringing on the new DASH aircraft with new sensors to augment 
the P-3's smaller, shorter range, a different aircraft, but one 
that will replace our C-3 or C-12 aircraft and give us much 
more capability in the southeast region.
    So as I close and welcome your questions, our focus remains 
unchallenged. There are a lot of things on our plate as we look 
to the southwest border with both immigration and drug issues, 
but our laydown in the southeast region, our commitment to 
JIATF South and the rest of the partnership remains solid in 
that regard.
    I welcome the chairman's questions.
    [The prepared statement of General Kostelnik follows:]

    [GRAPHIC] [TIFF OMITTED] T0898.035
    
    [GRAPHIC] [TIFF OMITTED] T0898.036
    
    Mr. Souder [presiding]. Thank you. Let me say for the 
record, I apologize I was late. We were actually voting over in 
Homeland Security on a number of amendments and final passage 
on Homeland Security.
    I thank you all for coming, and let me next recognize Rear 
Admiral Wayne Justice, Assistant Commandant for Enforcement and 
Incident Management of the Coast Guard. Thank you for coming.

                   STATEMENT OF WAYNE JUSTICE

    Admiral Justice. Good afternoon. Thank you, Mr. Chairman, 
and distinguished members of the committee. It is an honor to 
represent the Coast Guard men and women before you here today.
    This committee has asked if we can sustain record seizures 
of cocaine in the transit zone with declining resources. To 
answer that question, I would say, no, we probably cannot. The 
Coast Guard is providing the same or subtly more resources to 
join Interagency Task Force South, and the Coast Guard will 
meet and/or exceed our interdiction targets for this year.
    However, it is increasingly difficult, as my colleagues 
have stated, to sustain our current levels of success given the 
changing battlefield upon which we are now engaged.
    Our adversaries are shifting tactics and exploiting the 
very tools that have made us successful, expanding the transit 
zone and trying new and unusual methods of escaping our grasp.
    Airborne use of force has given us the ability to stop the 
go-fast vessels we find that have been the primary method of 
smuggling. Lately, there has been a perceived shift from go-
fast to fishing vessels. We see this tactical shift, if in fact 
it is a shift, as most likely reaction to the highly successful 
airborne use of force program.
    Prior to fiscal year 2004, there were no Ecuadorian flagged 
fishing vessels seized with drug loads. Now, for the first time 
ever, the number of Ecuadorian flagged fishing vessels seized 
for smuggling exceeds the number of Colombian flagged fishing 
vessels. This shift is perceived to counter the successes 
against Colombian flagged vessels, which come from utility of 
the U.S.-Colombian bilateral agreement, as well as the 
extraordinary coastal and littoral results by both DEA and the 
Colombian Navy.
    We are maintaining an aging fleet of ships and aircraft. We 
continue to lose patrol days to maintenance. In fiscal year 
2005 the Coast Guard lost 534 major cutter patrol days due to 
mechanical failures. In this current fiscal year we have 
already lost 333 days. For perspective, one cutter a year 
equals 180 days.
    Sir, the Coast Guard would never bring you a problem 
without bringing a solution. Now more than ever before, I say 
we--and by we I mean the entire interagency--are on top of this 
fight. We know from classic warfare that if your enemy is 
reacting to you, you are being effective, and we are pressing 
the initiative. On Friday, April 28th, we take a next step by 
deploying the first U.S. Navy air crew qualified to employ 
airborne use of force for the counter drug mission.
    Panama Express and the rest of the intelligence community 
are essential to our success. We must continue to support them 
and help them develop new sources in countries other than 
Colombia. Otherwise, as drug-trafficking organizations move 
away from the Colombian vessels, the intelligence gained on the 
ground from interdictions will decrease.
    The United States needs to, and we are, aggressively 
engaging the governments of Ecuador and Mexico to foster the 
same level of cooperative relationships we are currently 
enjoying with Colombia and other partner nations throughout the 
transit zone.
    Finally, we need to replace the aging surface and air 
fleets that we are pushing harder, further, and longer each 
year. Congress responded magnificently last year to the 
President's Deepwater funding request, and I thank you for 
that. The answer continues to be Coast Guard's Deepwater 
program, which would deliver more capable aircraft, cutters, 
and sensors to supporting the counter drug mission in the 
future.
    In closing, sir, our counter drug interdiction success is 
the direct result of the coordinated team effort. However, as 
we peek over the horizon, the counter drug battlefield once 
again is changing. We must be agile, respond quickly to develop 
actionable intelligence, and have capable assets and 
international partnerships. We appreciate your extraordinary 
support over the years, and I ask you to continue to help drive 
interagency efforts and the Coast Guard's integrated Deepwater 
program to ensure we are ready for the fight.
    Thank you for the opportunity to testify today, and I look 
forward to questions.
    [The prepared statement of Admiral Justice follows:]

    [GRAPHIC] [TIFF OMITTED] T0898.037
    
    [GRAPHIC] [TIFF OMITTED] T0898.038
    
    [GRAPHIC] [TIFF OMITTED] T0898.039
    
    [GRAPHIC] [TIFF OMITTED] T0898.040
    
    [GRAPHIC] [TIFF OMITTED] T0898.041
    
    [GRAPHIC] [TIFF OMITTED] T0898.042
    
    Mr. Souder. Thank you.
    We are honored today as well to have Rear Admiral Alvaro 
Echandia, who is Chief of Naval Intelligence for the Colombian 
Navy. Welcome to Washington, DC, and thank you for testifying 
today.

                  STATEMENT OF ALVARO ECHANDIA

    Admiral Echandia. Thank you very much, Mr. Chairman.
    The Colombian Navy has a very big commitment in the drug 
war, and I would like to start by giving a thank you very much 
for the United States and all colleagues at this table.
    The Navy has almost all budget of the year dedicated to the 
drug war. This year we have seized almost 12 tons of cocaine. 
That cocaine costs in the United States exactly the same amount 
of the budget of the Colombian Navy for 1 year. Last year, it 
was almost 100 tons of cocaine. I am responsible for the intel, 
not only for the Navy part, but the Marine Corps and the Coast 
Guard, because the Colombian Navy is just one organization.
    We have seen how narcoterrorists move very easily. As 
Admiral Wayne says, they react very fast. They can send the 
drugs from the Caribbean or from the Pacific. It is very easy 
to change because the organizations who make the transportation 
of the drugs, they are just illegal UPS. They send drugs from 
one coast or another. So the narcoterrorists just take the 
phone and call one or two organizations to send the drugs. That 
makes it very hard for us because we have to do a lot of 
coordination, especially with JIATF South, who is the best 
partner in this war. It is not easy for us to coordinate to 
send the assets, the planes, the ships. We use everything, all 
assets we have possible.
    We use the submarines to detect the go-fast, the noise of 
the propellers. We use old Coast Guard planes--we have only two 
planes--and it is very difficult, because a go-fast has a very 
small radar reflection, so it is very hard to detect at sea. We 
have studies that for a ship at sea, the probability of 
detection for a go-fast is only 5 percent. If the ship has a 
helicopter embark it, the probability rises to 20 percent, but 
it is still too low, because 80 percent of the drugs can come 
through.
    So we need airplanes. Airplanes are the solution to detect 
the go-fasts in the transit zone, and MPA, but only an MPA with 
the right equipment on board, because most of the events are 
during the night hours, so it is very hard to detect a go-fast 
at sea. They use all methods of camouflage. They put blue 
canvas on the top of the go-fast. They put wet blankets in 
order to mask the hit of the engines, so it is very hard. But 
an airplane with very good equipment, a FLIR system, a 
synthetic aperture radar, communications, and electronics can 
detect those go-fasts.
    We think that by using DC-3s with the right equipment on 
board we can rise from 20 percent to 70 percent. They pay a 
very low amount of money to get the drugs in Colombia, and they 
get $25 million for each ton that reaches the United States. 
That makes this work very, very difficult. That is why FARC 
understands that it is a very good business.
    We do not want to export drugs and we do not want the 
dollars from the narco traffic, because that hits our world.
    Thank you very much for the opportunity to testify here, 
sir.
    [The prepared statement of Admiral Echandia follows:]

    [GRAPHIC] [TIFF OMITTED] T0898.043
    
    [GRAPHIC] [TIFF OMITTED] T0898.044
    
    [GRAPHIC] [TIFF OMITTED] T0898.045
    
    [GRAPHIC] [TIFF OMITTED] T0898.046
    
    [GRAPHIC] [TIFF OMITTED] T0898.047
    
    [GRAPHIC] [TIFF OMITTED] T0898.048
    
    [GRAPHIC] [TIFF OMITTED] T0898.049
    
    [GRAPHIC] [TIFF OMITTED] T0898.050
    
    [GRAPHIC] [TIFF OMITTED] T0898.051
    
    [GRAPHIC] [TIFF OMITTED] T0898.052
    
    Mr. Souder. Thank you very much, and let me first say that 
in all of our world's struggles, how much we appreciate the 
Colombian Government, from President Uribe to the Department of 
Defense, Navy, the CMP, and the entire Colombian operation, to 
actually request additional assistance, to request cooperation 
with the United States, to request and cooperate, because we 
have so little of that sometimes in other parts of the world, 
and sometimes when we actually do cooperate, it is much harder 
to train and it has been a much more erratic success rate. What 
I have seen in my years as chairman of this committee and 
participation in this committee, as I have watched the 
Colombian Navy get more and more effective, and we need to help 
you become more effective.
    The CMP are a strong force, but we stood up the 
antinarcotics units inside the military. Now we need to realize 
that a lot of this is on the water too, and appreciate you 
coming today and being included in this so we get that into our 
record that it isn't just a matter of what we are doing in the 
jungle to get the labs, that it isn't just a matter of 
transiting to the border.
    But also, I know up at Santa Marta, I went a few years ago 
with Chairman Davis out in one of your new go-fast boats, where 
they got a load--I think it was a million load--that they tried 
to run while a congressional delegation was there, and they 
didn't realize you had two boats. [Laughter.]
    That the more ability you have to respond, because we know 
the decoy business, when you don't have much assets, if they 
send one, you can chase the wrong one. Unless you have the 
right intelligence, you don't get the big one, you get the 
little fish. It is a standard thing. I appreciate your 
cooperation.
    There are a number of things. I have met with most of you 
multiple times, and very much appreciate, if you can 
communicate this, not only your efforts in antinarcotics, but 
also those in each of your agencies because whatever criticism 
and discussions we have at the margin, day-to-day, everybody is 
out there doing whatever they can to try to get illegal 
narcotics, and we can never give enough thank yous. Just like 
our armed forces in the field, you have another division of our 
armed forces in the drug field, and we much appreciate that.
    I wanted to just make sure I get a couple things, one thing 
in particular, on the record with General Kostelnik. I 
appreciated our discussion last night, but one thing we talked 
about, that I remain frustrated. I understand some of the 
difficulties and I am not immediately expecting some formal 
answers to normal processes through the letters that--I have 
been frustrated--I haven't gotten the answers to, but we may 
submit additional written questions here, and I would 
appreciate to the degree possible, some responses there.
    But I wanted to put on the record that we had been asking 
about what the status of AMOC was in Riverside, and my 
understanding is that you intend to keep AMOC, and you see 
advancing that. Is that your intention?
    General Kostelnik. Yes, sir, Mr. Chairman. As I mentioned 
to you yesterday, actually, that was one of the first 
facilities in the Air Marine organization that I actually went 
out to the field to look at firsthand, because I had heard a 
lot about the capability. And I can tell you, since I know you 
have been there, that is a bright spot in the Government. We 
have very unique capabilities there. They provide the backbone 
for our command and control for a lot of our activity across 
the United States, and in supporting JIATF South as well. Not 
only is it going to stay as a part of our organization. You 
know we're committed to growing that over time, bringing other 
partnerships in and expanding our capabilities. So, yes, sir, 
you can count on that being there.
    Mr. Souder. I also appreciated that you systematically laid 
out--and I think you see a lot of your job as to try to make 
sure that you keep your Air and Marine operations up and 
running, and laid out some of your intentions for the P-13s and 
how to get the fleet up. Your intention is not to cut it back, 
but to make it flyable and get the additional hours up, and 
that for the record, if you run into problems or need 
additional dollars from Congress, you said that you would be 
direct in telling us in Congress that you need those additional 
funds to keep those P-3 hours up.
    General Kostelnik. Yes, sir. We're very committed on the P-
3 fleet, and, obviously, the example of the grounding gave us 
rare insight into the internal conditions of the wing, and 
these aircraft, on average, have about 37,000 flying hours, and 
it's clear they need some attention.
    In fiscal year 2006, we have $16 million, part of which 
we're using to deal with the fixes, half of which are complete, 
the other half will be complete by the end of the summer. The 
remainder of those funds we intend to develop in partnership 
with the OEM, Lockheed Martin, and our current support 
contractor, L-3 Comm Vertex, a prototype program for service 
life extension. I hope to have that prototype program designed 
and under way by the end of the summer. That will then set the 
requirements definition for the true funding requirements for a 
long-term SLEP program.
    Mr. Souder. I am going to read a statement, and then I 
would like each of you to say and express if you have any 
disagreement or comment on the question, and this is something 
we have been persistent at in Congress, and I am very 
frustrated.
    It appears in the Eastern Pacific that the drug runners are 
moving further out to sea, possibly outside the Galapagos. This 
presents a huge challenge to every single agency. It presents--
there isn't one of you that isn't--JIATF may not have as much 
because it goes into another JIATF zone, but you are dealing 
with certainly some of that as you are watching it at even 
JIATF. That as we watch coming off the Pacific side, the 
western side of Colombia, it is clear that we need an oiler out 
there, because as they move farther, our ships have to come 
back into harbor if they can't reach them. And they know this, 
and they are figuring it out more and more regularly. That it 
would potentially increase 25 percent of the on-station time 
for our ships if we had an oiler, which would equate, the 
estimates are, a 22 percent increase in seizures just with that 
extra time. Because I have seen all your charts, and when you 
count time there, in fact, you have a subzone that says time to 
the zone and time back from the zone. The question is, how much 
time do we have in the zone? And to the degree we have an 
oiler, we have a huge expansion of the time in zone.
    Here is my two-part question: Do you agree that an oiler 
would benefit the drug interdiction operations, and would 
operational security improve if an oiler ship were there for 
those operations and required fewer runs to port for fuel? We 
will start with Mr. O'Gara and move through.
    Mr. O'Gara. Mr. Chairman, thank you. I think the answer to 
the first part is clearly yes, and I am also happy to say that 
we are moving toward having some positive news to report to 
you, as Admiral Hathaway can explain in much greater detail, 
the naval element of SOUTHCOMM. NAVSOUTH has been working with 
a third country toward achieving an oiler capability at some 
point. We are not there yet, but we are moving in the right 
direction.
    With regard to operational security, I'm not able to really 
comment on that.
    Mr. Souder. Is that a year-round oiler?
    Mr. O'Gara. Potentially, yes.
    Mr. Souder. Because our concern is not for quick fixes. Our 
concern is to have an oiler that we have resources, not 
temporary agreements. I mean, a quick fix is better than no 
fix, but if it is a short-term fix, that isn't calm down, and 
to the degree there are third countries, we want to partner 
with third countries, but something as basic as this, I don't 
understand why we can't address it.
    Mr. O'Gara. We take your point. Thank you.
    Mr. Souder. Admiral Hathaway?
    Admiral Hathaway. Sir, from a JIATF South perspective, the 
area that we're talking about falls totally within my joint 
operating areas, 42 million square miles, and the simple answer 
to the oiler question is, yes. It would certainly produce 
advantageous results we think. To put it into a tonnage 
perspective, my professional perspective is it's probably good 
for about 30 additional seized or disrupted tons of cocaine a 
year.
    The good news is that traffickers are being forced into 
these areas farther and father offshore, and they are exposing 
themselves more because their logistics are as stretched as 
ours. That's the good news.
    The fact of the matter is that right now the top of the 
line Coast Guard cutter and the Navy ships we have can go for 
about 12 days between refuelings. That means when we are that 
far offshore in the Eastern Pacific, it's about 4 days to get 
the ship out there to respond to intelligence, 4 days to get it 
back, which leaves you about 4 days of on-station time, 
effective time. Right now, very often, those smuggling ventures 
do not expose themselves to us intelligence-wise until they're 
that far offshore.
    Some of the change in trafficker patterns that Rear Admiral 
Justice alluded to is that traffickers, especially in the 
Eastern Pacific, and to use a football analogy, are flooding 
the zone, in this case the transit zone, with false positives, 
false decoy vessels, security vessels, logistic support 
vessels, and they're playing a shell game of who has the drugs, 
and challenging us to sort them out where we can have a more 
robust presence, realizing that if they can get far enough 
offshore that we have only a moment in time to be able to get 
them. Unfortunately, sometimes we don't see those drugs. We 
don't see the right, not under the shell, until it's some 2,500 
miles west of the west coast of South America.
    An oiler would give us that persistent presence out there 
that we need, and again, I would say it's probably good for a 
significant additional tonnage of cocaine every year.
    We are partnering with the country of Chile right now. 
Whether that is a permanent solution remains to be seen. What 
we're hoping is that within the next 6 months, we will be able 
to get a Chilean NATO certified oiler for a 90-day period.
    What will that give us? It will give us a proof of concept 
over a reasonable period of time to see if, (A) we can get that 
additional persistent coverage, and (B) is it really good for 
something or not, or will the traffickers simply be pushed 
someplace else? So I think that 90-day proof of concept is 
very, very important. We're not necessarily looking at it as a 
long-term solution, but from a----
    Mr. Souder. So let me ask--I am sorry, because I am kind of 
confused. Haven't we had an oiler out there in the past?
    Admiral Hathaway. Excuse me?
    Mr. Souder. Haven't we had an oiler out there in the past?
    Admiral Hathaway. There have been oilers out there in the 
past, yes, sir, that I say----
    Mr. Souder. And weren't they helpful?
    Admiral Hathaway. They were helpful in an era where we had 
very little intelligence to cue us where to go, and so we were 
able to keep ships on station, but we didn't necessarily know 
where the bad guys were. What has changed now is we know where 
they are----
    Mr. Souder. Do you believe they were effective at that time 
or not effective?
    Admiral Hathaway. They were able to give us additional 
unseen presence out there, and we know we can do that. Those 
were U.S. Navy oilers that, unfortunately, are tasked in other 
parts of the world today.
    Mr. Souder. But don't you think they were effective at the 
time? Is there any intelligence suggestion, based on anything 
historically, that would suggest that they weren't effective, 
and that they won't even be more effective? In other words, the 
idea of this as a pilot study is kind of silly, because it 
worked. What you're really saying is how effective, in a 
gradation scale, because it was reasonably effective even 
before intelligence. Now we have a lot more intelligence, so 
don't really need to--the only study we are going to find is 
how much more effective it is. It will show us other 
trafficking patterns and other potential adjustments, but the 
conclusion isn't likely to be that we don't need an oiler.
    Admiral Hathaway. Probably not, unless traffickers change 
their patterns such that they're not trying to go far out and 
around us.
    Mr. Souder. So that would be good, though.
    Admiral Hathaway. That would be a good----
    Mr. Souder. So the oiler out there, if all that forces--I 
am trying to see what possibly could you find from a study that 
wouldn't suggest an oiler is useful. Because, what, we're going 
to suggest they are going to go to the Philippines and back in? 
I don't think so. That if we push them closer to shore, that is 
where we want them. So if our only purpose is to decoy them in 
farther, I am trying to think, if you use the word ``pilot 
study,'' presumably you are looking for something that--it will 
be interesting to see what happens, but it is not a pilot 
study. We know what works. It is just we are going to find out 
how it works and how we adjust off of it.
    Admiral Hathaway. Pilot study would mean we're doing it for 
the first time, really proof of concept to see if----
    Mr. Souder. We know----
    Admiral Hathaway [continuing]. We'll have the results that 
we----
    Mr. Souder. I am sorry. I am not going to let the record 
stand that it is a proof of concept. We know the concept works. 
The question is what are all the ways it works?
    Admiral Hathaway. Fair enough, yes, sir.
    Mr. Souder. But that is an important distinction because we 
are trying to make the point to our U.S. military that we need 
a permanent solution. We know it works. What you are going to 
prove with this is how many ways it works, in what ways it 
works, but it is, in my opinion, a potential delaying tactic. 
It is better than nothing. I will take a Chilean ship over 
nothing. The question is that we need an understanding in our 
own armed forces that the United States needs to make a 
commitment, too, that is more permanent, because we know it 
works. And for us to sign off that this is a pilot study to see 
if it works is just not true. It is to see how it works. It may 
push them in different directions. We will learn information 
from it. But we know it works because we have done it.
    Mr. Braun, let me ask you a couple questions as I am moving 
through on this oiler question. We have seen lots of reports of 
increases in Guatemala. I presume it isn't the DEA position 
that it is because Mexico has become so tough to get in, they 
are going into Guatemala. That suggests if it is indeed rising 
in Guatemala, we have an increasing problem, and the zone is 
getting more flooded than in the past. So at the very least it 
suggests we have better intelligence that is showing our 
failure, or it suggests it is increasing.
    Do you believe an oiler would impact this, and what impact 
would it have, not only on Mexico, but Guatemala and down?
    Mr. Braun. Mr. Chairman, I am about as far outside of my 
lane with this question as I could possibly get. The last time 
I was on a ship was 35 years ago as a young Marine leaving 
Vietnam. [Laughter.]
    So I would have to defer to the experts.
    Mr. Souder. Let me ask you the question. Do you believe 
there has been an increase up and down the border on the 
Pacific side?
    Admiral Hathaway. Yes, I would say that.
    Mr. Souder. And an increase since the oiler was last out 
there?
    Admiral Hathaway. Sir, I'm not sure when the oiler was last 
out there, and I would have to look----
    Mr. Souder. Would you ask the DEA to provide the estimates 
now--some of this may be better intelligence--of what the 
current estimates are, what is landing from the DEA's 
perspective, and what was landing when we had an oiler and what 
was happening before the oiler, understanding we also have an 
informational thing that we will go into later on, the coca 
statistics.
    General Kostelnik, do you have any comments on this 
question?
    General Kostelnik. Sir, I think I'd have to associate my 
experience with Mr. Braun on this. Ours is the detection game, 
but to the extent that more time on station for the surface 
ships which provide the endgame would be helpful, I would say 
yes. And I think you know that we support this region, which 
is, I think, fairly active from the work that I've been seeing 
in the last several months. And of course, we deploy, 
supporting Admiral Hathaway, out of Manta Ecuador, and our P-3s 
are very active out in that area, and we've had some very 
successful endgames with support from the Coast Guard and Navy 
in that region.
    Mr. Souder. Admiral Justice, do you believe that having an 
oiler out there helped the Coast Guard in the past?
    Admiral Justice. Oh, yes, sir, it would.
    Mr. Souder. Do you think there is any doubt that a study is 
going to show that it is helpful?
    Admiral Justice. No. No, sir. I know when I was on my ship 
out there, it would have been great to have one. I'll put it on 
that road.
    Mr. Souder. Where do you think the drug dealers would move 
if we put an oiler out there? What do you think is likely to 
happen?
    Admiral Justice. I concur again with Admiral Hathaway. The 
challenge would shift. Moving them in or east, is still as 
challenging.
    Mr. Souder. But you would like that, wouldn't you?
    Admiral Justice. Oh, yes, sir, absolutely right.
    Mr. Souder. I mean it would be nice to be closer to shore.
    Admiral Justice. Yes, sir. [Laughter.]
    Mr. Souder. Admiral Echandia, as you look at your 
challenges coming from the western side of Colombia and the 
Eastern Pacific, have you see patterns too of them going 
farther out to sea? And would it help you if you had more 
assets to be able to track in the Eastern Pacific?
    Admiral Echandia. Yes, sir. The narco-traffickers are very 
flexible to move. For example, last year most of the events 
were done using fishing boats. I mean that the cocaine was 
actually loaded in fishing boats. This year they changed 
because we were very effective last year. So this year they 
changed. This year they changed pretty much, returned to go-
fast again. So the go-fast is more difficult to detect. And 
definitely the air assets are very important. We need first the 
intel, but we got very much more intel than assets. Many times 
we have information, but we don't have the assets to react. If 
we have airplanes with the right equipment, we can use the 
intel to detect and track those go-fasts.
    Mr. Souder. Thank you. I want to make sure that--Admiral 
Hathaway has been a strong advocate of trying to make sure we 
have more resources out there. I didn't mean anything in my 
question to suggest that you weren't a strong advocate. Better 
a partial solution than no solution. It is just that I am 
working hard and want to make sure we get a long-term solution 
as well.
    Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. And again, 
I reiterate, I thank all of you for what you do every day to 
make our world a safer place. We really appreciate it.
    Admiral Hathaway, let me go to you. You talked a little bit 
earlier about--I think it was you that talked about the storms, 
Katrina and--it was you, right?
    Admiral Hathaway. Yes.
    Mr. Cummings. OK. I take it that they had an effect on your 
operation, a significant effect? In other words, your regular 
operation, did it take away resources, manpower?
    Admiral Hathaway. From a pure JIATF South point of view?
    Mr. Cummings. Yes.
    Admiral Hathaway. Mr. Cummings, we have a plan in place 
such that we're able to shift our operations to Naval Station 
Mayport. I have characterized it to some as a JIATF South mini-
me that we keep in cold storage at Naval Station Mayport. And 
we can activate it and continue operations. And to our units in 
the field, it's invisible, that perhaps we have left Key West. 
The only thing that atrophies over a period of time, after 
about 2 weeks, is that our intelligence picture begins to 
diminish, but we were never away for more than 2 weeks, so that 
was not much of an issue.
    In the wake of the devastating Hurricane Katrina, for 
example, we did lose, for a multi-week period, most of our 
Coast Guard cutters, all of our CBP P-3 fleet, actually some of 
our allies, the Royal Netherlands frigate that we had working 
for us, Royal British Navy frigate that we had working for us, 
who came to the call of the United States in its time of need, 
and to a higher priority mission to this country at that point.
    We carried on, working with U.S. Navy assets and other 
international partners as best we could. To say that we were 
not affected would be less than the truth. During that period 
of time, you could see where our success curve diminished 
somewhat. Just as soon as the Coast Guard, Customs and Border 
Protection, and others could get back into the counter drug 
fight, they did. And again, could we have achieved even higher 
successes in calendar year 2005 than the combined force did 
absent Katrina? We probably would have, because for last year 
we were truly inside the decision loop of those transportation 
organizations.
    Mr. Cummings. I see you shaking your head, Admiral Justice. 
Did you have something you wanted to add?
    Admiral Justice. Only to concur, sir. Yes, we had to--we 
moved Coast Guard assets up into the Gulf. It affected us not 
only in counter drug, but also in our counter migrant 
challenges in the Florida straits. There was a significant 
spike in illegal migration during that time as well post-
Katrina, as our resources were directed elsewhere.
    Mr. Cummings. When I went down to the Gulf Coast not too 
long after the Katrina episode, a lot of people were very 
complimentary of the Coast Guard. They were emotional, a number 
of them, just saying that if it were not for the Coast Guard, 
they would not have been alive. I just wanted to pass that on 
to your folks.
    Admiral Justice. Sir, thank you.
    Mr. Cummings. The reason why I was getting into that, I 
wanted to make sure that--one of the things that we have been 
concerned about is trying to make sure that under all 
circumstances we have the resources that we need to not only 
fight the drug war, but to fight the war on terrorism, and also 
to make sure that we take care of the people in this country. 
It is a hell of a balance, and I guess you have to have a lot 
of flexibility to do the things that you all do.
    And I was just wondering, when I listened to you, General 
Kostelnik, when you were talking about the vehicles that we 
have that are out of commission, it makes me wonder whether we 
do have the necessary resources to do all of this. We don't 
want to be in a situation where the American people are of the 
opinion that they are in a safe environment or that we have 
forces that can effectively deal with whatever may come, and 
the next thing you know, the problems come. And then they say, 
``Well, what happened? Why weren't we prepared?'' I think it is 
part of our responsibility to try to make sure that those 
resources are present.
    I guess I said all that to say, where do we stand? I mean, 
do you think we have what we need to do the things that you all 
need to do? Mr. Braun, you look like you want to say something 
real bad. [Laughter.]
    I think you are about to jump out of your seat.
    Mr. Braun. Well, thanks for picking on me, sir, but I mean, 
I like to think that when you are fighting drugs, you are 
fighting terrorism. When you look at the modern-day drug 
trafficking organization, and you compare that side-by-side 
with the modern day terrorist organization, you're looking at 
one and the same animal, with the exception of probably the 
last block on the checklist, and that is the motivation, 
modern-day drug trafficking organizations are purely focused 
for the most part on greed. It is a greed-driven enterprise. 
Terrorist organizations, on the other hand, as you well know, 
are motivated by cultural, political, religious ideology, and 
that's where they differ, but everywhere else along the line, 
they're the same.
    What bothers me, what concerns me--and I believe I touched 
on it in my opening comments--was, you know, I'm convinced you 
can't fight one without fighting the other and expect to win. 
Terrorist organizations rely on the same smuggling 
infrastructures that support foreign or major drug trafficking 
organizations. They rely on many of the same things. They rely 
on the same money-laundering networks oftentimes, the same arms 
smugglers. Although they may be separate and distinct--and 
that's a tough comment for me to make--they often come together 
for the benefit of both of these organizations.
    I mean, do we have enough? I think we could always use more 
resources. But I want to echo one more time what I said, what I 
believe everybody said at this table is, you know, with what 
we've got, we are doing tremendous, tremendous work, and I 
think we're getting better at it all the time.
    I mean, quite honestly, I think next year's statistics will 
probably show an increase over this year's, hopefully so.
    Mr. Cummings. When you listen to the line of questioning of 
Chairman Souder, I guess what he is getting at is he is trying 
to figure out, when he talks about the oiler--and he certainly 
can speak for himself--how do we take the resources that we 
have--I think this is what he is getting at--and be most 
effective and efficient with what we have? And I just--you 
know, I think that we all have to be very careful to make sure 
that we are not putting something out to the American people 
that we can't do--not can't do, but aren't in a position to do. 
I think a lot of people had a lot of high expectations of our 
country, and then when September 11th came along--and I know 
that was a very unique situation, I know that--but they were a 
little bit surprised. A lot of my constituents said they 
thought we had better operations to protect against that.
    Then after September 11th, when they see Katrina come 
along, and then they wonder, and I think that--I just want to 
make sure that we are doing our part. You follow me?
    Mr. Braun. Yes, sir, I do. I would like to say too that I 
referred to the drug flow prevention strategy earlier, which is 
a new strategy. I can tell you that everyone at this agency, 
representatives from every one of the agencies represented the 
this table, came together as well as others in the intel 
community. Basically, all the Federal law enforcement and the 
intel community, DOD and others, came together to determine 
what more we could do to disrupt, significantly disrupt and 
interrupt the flow of drugs, chemicals and money from the 
source countries into the United States. And we have concluded 
our second operation, and it was as successful as the first, 
and what we would be more than willing to do, sir, is meet with 
you and provide you with a classified briefing. I think you 
would be impressed with what you heard.
    Mr. Cummings. OK. I will do that. I will definitely do 
that.
    Let me go back to Admiral Echandia. One of the things, you 
know, you talked about one of the most effective ways to 
address the problem of limited interdiction assets and our 
inability, I think you said, to act when you have intelligence, 
but you can't act on it, is for us to put more resources into 
the Colombian Navy; is that right?
    Admiral Echandia. Yes, sir.
    Mr. Cummings. Would you elaborate on that a little bit?
    Admiral Echandia. Yes, sir. We work very close to JIATF, 
but sometimes we have information in the first 12 miles, and we 
don't have sometimes the resources to act, even outside those 
12 miles. The narco-traffickers are using now also submersibles 
that are impossible to detect from the surface ship because 
they go behind the scenes. It's not detectible even with the 
sonar because it is not in the place when the beam of the sonar 
goes. So the only way to detect those is at night with an 
airplane, with a FLIR system that we can detect a hit from 
this. This is one of those, this year and last year, which is 
another one. Sometimes they can carry up to 4, 5 tons of 
cocaine. So the assets are very important.
    If we have the planes we can fly right from the coast. We 
would be very effective because sometimes we understand the 
planes from JIATF comes from very long distance to a distance 
when we have information. If we have the information and we 
have the planes right there, we can act very fast.
    Mr. Cummings. Let me ask you this. Have your intelligence 
capabilities gotten better over the years?
    Admiral Echandia. Yes, sir, much, much better. Matter of 
fact, we changed the organization of intel a year ago, and I am 
the first flag officer in that position. Used to be a captain, 
an 06, and now am a flag officer. And the organization is 
pretty much larger and has more resources, all kind of 
resources.
    Mr. Cummings. Just a last question back to you, Admiral. 
Considering what Mr. Braun just said and the fact that we have 
these limited resources, do you agree with the Admiral with 
regard to the resources going into the Colombian military, the 
Navy, more assets? And I imagine that is very frustrating when 
you have the intelligence but you don't have the resources to 
go after these folks. One time I think we were having some 
intelligence problems--and I am sure they still are--but he 
just said it has gotten much better, so I am just wondering.
    Admiral Hathaway. In regards to the Colombian Navy, sir, 
there resides a very capable surface fleet from very large 
naval ships all the way down to some of the recently provided, 
we commonly refer to them as ``Midnight Express'' interceptor 
boats, that are run by their Coast Guard. And as Admiral 
Echandia said, the Navy, the Coast Guard and the Marine Corps 
work as a combined unit in Colombia. They have fantastic 
intelligence as compared to 3 years ago. As Admiral Echandia 
said, he is the first flag officer to serve as the Chief of 
Intelligence, an indication that they have intelligence. 
Admiral Soto, the head of the Colombian Navy, picked Admiral 
Echandia personally to make that blossom, realizing that 
intelligence is really the key to the future.
    They have a submarine fleet. What the Colombian Navy lacks 
is reliable maritime patrol or aerial surveillance, not only 
within their territorial waters, but to help patrol their 
exclusive economic zone out to 200 miles. What he says is 
absolutely true; most of our JIATF air resources fly from 
hundreds if not thousands of miles just to get into a location 
off the Colombian Coast, either west or in the Caribbean 
sometimes. If they had access to more generic maritime patrol 
aircraft--or aerial surveillance is really the requirement--I 
think that the resources that they have in the Colombian Navy 
today would be much more productive.
    We have shown when you have the integrated force package 
that you're successful. Does you no good to have a ship on the 
ocean that's not being supported by someone above you that can 
see a lot more than you can. Conversely, it does you no good to 
have an aerial asset that sees something and there's nothing 
there to be able to respond to it. We have been frustrated both 
ways. Admiral Echandia is feeling that today.
    The components they have are all coming together. They 
still do not have that generic maritime patrol or aerial 
surveillance in their littoral regions to truly be a force 
multiplier for the other very competent capabilities that they 
have today.
    Mr. Cummings. And therefore, we don't have--and I am 
finished with this--but we don't have the resources to solve 
the problem that you just said? That is what I was trying to 
get to. Is that accurate?
    Admiral Hathaway. We spread the maritime surveillance that 
we have to support U.S. assets at sea, the Colombia Navy, our 
other allied assets. When you keep in mind that today some 75 
percent of the cocaine moving to world markets comes out of 
Colombia, it would probably make sense that a very aggressive 
and otherwise well-equipped Colombia Navy has its own generic 
maritime patrol, whether it actually--it doesn't matter where 
it comes from, but something that can be tasked by the 
Government of Colombia, and is much closer to the source of the 
problem.
    Mr. Cummings. Thank you.
    Mr. Souder. It is fairly safe to say that somewhere around 
50 percent of that--it is hard to say precisely--is going to 
Europe, and Europe hasn't been particularly helpful with what 
is going out of the north. I want to make sure I get this on 
the record because you have certainly shared it with us in the 
past, and you more or less hinted there, Admiral Hathaway--
would you agree with this statement? We are seeing drug 
shipments coming, and we don't have the assets to interdict 
them?
    Admiral Hathaway. The good news is we're seeing so much 
more, and the fact of the matter is that we have intelligence 
today that I would love to be able to either have a ship or an 
aircraft go check out to see if that is in fact a drug 
shipment. In some cases today we are having to forgo that 
opportunity.
    Mr. Souder. So the likelihood is we are getting more, but 
we are seeing more as well. So both our success and failure 
rate is increasing because we now know more about it.
    Mr. Ruppersberger.
    Mr. Ruppersberger. Well, first, I want to thank you all for 
being here. We do have a big problem, I think internationally 
and nationally, and that problem is that we have to start 
reprioritizing I think in the issue we are talking about here 
today.
    The war against terror is very important, and there are a 
lot of assets that are going into identifying information, 
intelligence that is necessary, and I am on the Intelligence 
Committee, so I hear both sides of what is going on, and Mr. 
Braun, I have had briefings from both military and other about 
where we are from an intelligence point of view.
    One of the things that I keep saying is, you know, if you 
look at our facts and if you look at what our problems are in 
the world, probably drugs clearly are probably our biggest 
problem. And if you lay it out on the table how much more drugs 
impact society versus terrorism--not that terrorism is not 
serious--I think just in our country--and you can correct me, 
Mr. Chairman--about 85 percent of all violent crime is somehow 
drug related.
    I think if you look at our borders, especially the Mexican 
border, 80 to 95 percent--and you correct me where we are--that 
comes really basically from Colombia to Mexico. If we put the 
same resources, just half the resources that we have in Iraq--
and I just came back from Iraq 3 weeks ago--not only just you 
gentlemen and what you do here today, but also your CIA, your 
NSA, and the resources, we could do a lot more with respect to 
the issue with the borders.
    It seems to me that we really have to start focusing very, 
very clearly, that we can do--we can use the same type of 
equipment and technology that we use in terrorism, fighting 
terrorism, to deal with drugs, and also immigration. I mean a 
lot of it will come together.
    Right now, what I can say--and you can't say a lot when you 
are on the Intelligence Committee it that we are starting to 
see more and more, and probably more maybe in Afghanistan, than 
I would say the issues that we have in Colombia and Mexico, but 
we are starting to see more and more that some type of funding 
that might be able to go into the terrorism area. But what you 
said--I forgot who said it--you know, the terrorism is more 
ideological, versus drugs are still money driven, and that is 
very relevant.
    So where do we go from here? First thing, I think the 
problem now really lays at the feet of the President, the 
administration and Congress, because you can sit here all day 
and tell us what is going on and what you are doing and what 
equipment you are using, but bottom line, what we are hearing 
here today is that we now have gotten to an area of 
sophistication that we are really developing what we can do to 
solve or try to deal with this issue, but we just don't have 
the resources to do it any more. So it is up to us, it is why 
we are having this hearing, to try to get the administration 
and Congress to refocus.
    Now, how do we do that? First thing, I would like to ask, 
from a priority point of view, we are not going to have 
anything. Right now we are on the bottom of the totem pole, 
unfortunately, as it relates to drugs from where I sit. But 
where are these priorities and what can we do to maybe do it 
out--but something that we need a lot more? I clearly think 
that intelligence is the best defense against terrorism, and I 
see it now with drugs. And, by the way, I was a former drug 
prosecutor for about 9 years, and did wiretaps and 
international drug rings and that type of thing too, and I 
found, you know, you knock out five groups, and five more are 
right behind. But it was an easy area to work, because as soon 
as you pop or arrest somebody, you usually find that your drug 
organizations, because they are facing a lot of time, will 
cooperate, so you know, we are pretty active there. So you have 
to go to a source. You got to go to transportation. You have to 
go to a border, and then you deal with some of the street 
issues too.
    From a priority point of view, where you are sitting, from 
your perspective, what are your highest priorities so we can 
argue your point? Now, one of the things--you see the pictures 
there about--what do you call it you are using where the wings 
are cracked, S what--P-3s. P-3s. UAVs are, I think, are a 
tremendous tool that we have right now, and the sophistication 
is getting a lot better in fighting the war against terror, in 
fighting the war in Iraq and Afghanistan, and I think from a 
drug perspective, too. And you don't have the same kind of 
problems that you have about our three men from Northrop 
Grumman that are still wherever they are in Colombia.
    What are your priorities? What would you like to see us 
prioritize? And unfortunately, in our system, you are the 
administration, a lot of you, and you can't really argue 
against the President's budget, which I don't know if I like 
that or whatever, but I understand where you are coming from--
so tell us where--and let's go down the line real quickly--
where would you like, from your perspective, where would you 
like us to put the priority so we can argue that point of view? 
Because the people here--and Marc's father lives and dies this, 
I mean he really wants to make a difference. We were just in 
Afghanistan, where the poppy was grown, and saw the eradication 
with the United States and Great Britain and that type of 
thing. So I think you really have some advocates here if you 
let us know where your priorities are.
    Mr. O'Gara. Mr. Ruppersberger, thank you for the 
opportunity to answer that. In the drug control world 
internationally, I would say that the intelligence capacity is 
fairly highly developed. Organizations like the Drug 
Enforcement Administration have brought to bear unique and 
highly sophisticated technical capabilities and they've merged 
them with their elaborate----
    Mr. Ruppersberger. Drug Enforcement has become a part of 
the intelligence community to an extent with DNI. That might be 
another way we can look at where we can----
    Mr. O'Gara. I don't want to steal Mike Braun's thunder, but 
he can talk about that as well.
    Mr. Ruppersberger. Well, don't worry. He will.
    Mr. O'Gara. In terms of what Admiral Hathaway and his ilk 
are doing in the Transit Zone, that employs things that would 
not have been surprising to an Army Signal Corps operator 
during World War II on up to very esoteric and cutting-edge 
technology. And one of the strengths of JIATF is the ability to 
merge and integrate all that overlay, the human picture that 
they're getting from PANEX, and get it out to the field quickly 
and in a secure manner.
    In terms of priorities that go by country, as you know the 
administration--and you are familiar with this--has a fairly 
elaborate requirements process. We would be happy to brief you 
on that separately in a closed session.
    And I'll just leave it there.
    Admiral Hathaway. Sir, as you will see, we all come at the 
problem somewhat differently based on what our daily duties 
are. If the target set that we're looking at a shortage in 
terms of being effective against is today, and for the purposes 
of this hearing, drug shipments emanating out of South America, 
coming toward the United States, I would say persistent 
maritime surveillance, given the modus operandi of the 
transportation organizations, today remains JIATF-South's 
greatest detriment.
    And I say ``persistent maritime surveillance.'' Today it is 
most often met by long-range four-engine aircraft, but it could 
be, in the future, UAVs. We finished not too long ago a study 
utilizing Global Hawk to see if it had applicability in the 
counter-drug mission. The results of that are still being 
tallied. Is Global Hawk available to be employed by JIATF-South 
today? Absolutely not. Too high to----
    Mr. Ruppersberger. Let me stop you there. Why ``absolutely 
not?'' I mean, what do we have to do to maybe get the 
administration or to get Rumsfeld or whatever to really start 
refocusing on maybe sometimes crisscrossing and sharing this 
information? When you need the help of a UAV, it seems to be 
very effective. And, you know, UAVs--the good news--are not as 
expensive as a lot of other technology that we have. They can 
be made pretty quickly and get out to the field right away.
    I mean, have you attempted to ask for this and is the 
response negative? Or is it all about terrorism and the war in 
Iraq and Afghanistan? What's going on there? Because I think 
that could be extremely effective on a short-term basis and we 
get very quick results.
    Admiral Hathaway. Yes, sir. As was pointed out by Mr. 
O'Gara, in the DOD requirements, U.S. Southern Command does 
have a standing requirement for UAVs that currently cannot be 
met because of other world demands.
    Now, not just any----
    Mr. Ruppersberger. OK, so then basically you made a request 
and it has been turned down? So from my perspective--not yours, 
because you are part of the administration, just like the 
generals who retire but you can't speak out when you are 
there--I mean, I can. So I am asking you the question. Would a 
UAV--I mean, do you think--I am asking for priorities. And I do 
sit on the Intelligence Committee. In fact, I was late because 
we have our budget on the floor today. And so, you know, you 
might have some input there.
    Would UAVs, which, if we redirected some priorities, be one 
of your highest priorities in doing what you need to do?
    Admiral Hathaway. To the extent that it can provide 
persistent maritime surveillance--which means not just any 
UAV--absolutely. To be able to really get into the heart of the 
issue, sir, is beyond the classification level of this open 
hearing to be able to talk about exactly the capabilities----
    Mr. Ruppersberger. And I understand you can't go too far. 
But----
    Admiral Hathaway. But absolutely----
    Mr. Ruppersberger. Why don't you get with the chairman and, 
if you want, we will be there. And, you know, we go to meetings 
all the time, so we don't need any long meetings. But just 
your--I am asking for a list of priorities that, when I am in a 
hearing in Intel, and we are doing budget appropriations, that 
we can start trying to get these priorities back online. 
Because this is getting to be very serious. And when we sit 
here today saying you are really gearing up and you are doing 
the job, but you don't have the resources to deal with it, that 
means there are a lot of drugs going out in the street every 
day.
    And, you know, it is so frustrating--I don't know about 
you, Mark--to sit in these hearings and, you know, you come and 
you give your testimony and then nothing happens. And that is 
why you are having a second hearing today.
    So I can tell you, I mean, there are three of us here 
today, we will try to prioritize if you can get us your 
priorities. And I would like you to focus on the UAV, because I 
think that might be a way we can use technology with less 
manpower and that might really help you in that regard, from 
your perspective. Can you do that for us?
    Yes, sir? No, sir? No excuses, sir?
    Admiral Hathaway. We can prioritize anything, sir, 
absolutely. [Laughter.]
    Mr. Ruppersberger. OK, now, any other priority other than 
that? I mean, we talked about UAV. Any other priority?
    Admiral Hathaway. I am going to give the other witnesses an 
opportunity because I know they have some things that would 
also be on my list. I don't want to----
    Mr. Ruppersberger. Well, if they don't, come back and give 
it to me. OK.
    Mr. Braun.
    Mr. Braun. Yes, sir, one of the biggest challenges that we 
face today as an agency, the DEA--and I'm speaking for DEA, but 
I know that the--and I know that you know--the FBI, ICE, and 
other law enforcement agencies, Federal law enforcement 
agencies, are facing the same problem. And it is the threat 
posed by emerging technology, technologies that are advancing 
so rapidly that we're having a tough time even catching up. And 
I----
    Mr. Ruppersberger. If you are talking about on the street, 
I will take a DEA agent any day of the week.
    Mr. Braun. Thank you, sir.
    Mr. Ruppersberger. You do a great job in the field.
    Mr. Braun. I appreciate that. And I want to assure the 
community that human intelligence will always be our 
foundation. But as an agency----
    Mr. Ruppersberger. Do what you do best.
    Mr. Braun. Thank you, sir. About 20 years ago we did make 
some strategic decisions that we weren't going to buy or bust 
our way out of this problem; we had to focus on command and 
control nodes. You mentioned wiretaps earlier. Last year as an 
agency, we conducted more criminal wiretaps than all of the 
Federal agencies, law enforcement agencies, combined.
    Mr. Ruppersberger. Good results?
    Mr. Braun. The results, tremendous results that--I mean, I 
could talk about this all afternoon, sir. But we do have 
tremendous results. I think most recently the indictment, 
working very closely with our Colombian counterparts, the 
indictment of the 50 highest-level members of the FARC. Now, 
getting our hands on them and getting them into a U.S. 
courtroom is, you know, going to be tough, but we have three 
right now that our Colombian counterparts do have under arrest 
that we are seeking extradition for, and they have worked with 
us very closely on that.
    Mr. Ruppersberger. Are you still using RICO and asset 
seizures and stuff like that?
    Mr. Braun. Yes, sir, CCE, RICO, asset seizures.
    Mr. Ruppersberger. Yeah, OK, because that seems to be very 
effective.
    Mr. Braun. And I'm proud to say that about 2 years ago, as 
an agency, we seized about $400 million in cash. This past 
year, because of the Administrator's direction of following the 
money and focusing on that, we seized over $1.5 billion in 
cash.
    Mr. Ruppersberger. Good.
    Mr. Braun. And we're gaining ground in that respect as 
well.
    But this emerging technology thing, this VoIP, Voice over 
Internet Protocol technology by which drug traffickers, 
terrorists are communicating, I mean, it is extremely 
difficult. And I am not saying that we need to back off of the 
strict judicial oversight; we always need that. But we've got 
to--today's communications-intercept laws were written in the 
1940's and 1950's, for God's sakes, and we've got to start 
focusing on the technology and----
    Mr. Ruppersberger. That is a very relevant point. We are 
dealing with that same issue, you know, with terrorism and NSA 
and everything else. And I think in the end, if we are going to 
really be as effective as you need to be, you need NSA in there 
working with you to--just like we identify terrorists, we need 
to identify drug dealers and where they are going. And now that 
you are a part of the intelligence community, take it back. I 
have asked, because I am on the committee, that I think we need 
to really address the issue you talked about.
    So same thing with this new agency in the FBI, the new spy 
agency. You know, the FBI's culture is that of investigate and 
arrest and then charge or indict or whatever. But, you know, we 
can do that all day long, and that is the culture of the FBI, 
but the FBI is responsible for our security as it relates to 
terrorism in this country. And this new spy agency has to be 
different than arrest-and-convict.
    And the good news is that you have some CIA people and FBI 
setting up this new agency within the FBI. And one of the 
things they have to deal with there is what you just said. A 
lot of the laws that we are dealing with in the electronic 
surveillance in those areas are laws that were written 20 years 
ago. But we are a system, a country of laws, so we must have 
the laws before you can go out and do things that now is at 
issue with NSA.
    OK. Any other thing?
    Mr. Braun. Well, sir, just very quickly, one last thing. 
And I just, I want to add this, that I am convinced in my mind 
that by doing what all of us do at this table, we are providing 
a defense in depth, not only on counter-narcotics, but if there 
are some other nefarious activity going on out there, OK, we 
are going to be the first ones that bump up against it. So any 
resources that we are able to have focused in our backyard 
benefits our Nation--and not only our Nation's war on drugs, 
but our Nation's war on terrorism.
    Mr. Ruppersberger. Just to talk about resources. About 2 
years ago, I think, I was in Chiang Mai, where you have all 
this methamphetamine coming in from Burma into Thailand. And I 
think that used to have maybe 15 people at that station--there 
is one DEA agent right now. Where did they go? Where did they 
go? Do you know?
    Mr. Braun. In Chiang Mai, I----
    Mr. Ruppersberger. That is just an example I used. You had 
that force there, now you have one, I think, that is going to 
deal with all that methamphetamine. There are probably a lot 
coming into California and that area, and Indiana, I think.
    Mr. Braun. Yes, sir. We still have a significant presence 
in Thailand. We don't have the numbers that we once had in 
Chiang Mai. I would have to----
    Mr. Ruppersberger. Well, where did they go?
    Mr. Braun. Well, I believe they've been redirected 
elsewhere within Thailand.
    Mr. Ruppersberger. OK. Because of budgetary issues, too, 
correct?
    Mr. Braun. Yes.
    Mr. Ruppersberger. OK. That is what I was trying to get at.
    General Kostelnik. Sir, our highest priorities would be, I 
think, the ones that you mentioned. First of all, the P3s, 
given Admiral Hathaway's comments on how important persistent 
maritime surveillance is and given the fact that our P3s are a 
significant portion of that capability. It is important for us 
to establish a credible long-term service life extension 
program for these aircraft. They are very capable in what they 
do. They're optimal for the mission that we have. There really 
hasn't been that much of an improvement in aviation that would 
warrant a new purchase, as new aircraft with new systems would 
be very difficult for us to implement in a timely fashion.
    So P3s, I think, are a very credible source. We have 16 of 
them in our service dedicated to this mission. That is going to 
continue. For 2007 budget, our strategic plan on the future of 
the P3s was not complete at the time that was exercised by the 
administration, but we did get the foresight of having the 
money necessary in 2006 to start that program. The initial 
parts of those funds have allowed us to fix the problem we 
currently have and they will provide us a mechanism of 
determining what the long-term requirements are. They may or 
may not be required in 2007, but certainly we're working 
internal to the administration to plan for this kind of future 
to keep these aircraft robust--one line for maintaining and 
dealing with the effects of aging; a second line for increasing 
the capability in terms of improvements in computer software, 
you know, command and control features and surface surveillance 
radar.
    So our highest priority, and the air and marine thing for 
not only the drug interdiction but also the antiterrorism 
approach in the coastal and these same regions is for, you 
know, making sure these aircraft remain safe and effective for 
the long term. And I think in that regard we are in very good 
shape, but if there was a priority, this would be our first 
one.
    The second one, it is interesting that you note, because we 
have been involved in the UAV business, not in the Global Hawk, 
which is a pretty large, sophisticated----
    Mr. Ruppersberger. Shadow?
    General Kostelnik. Predator B.
    Mr. Ruppersberger. Oh, Predator B. OK.
    General Kostelnik. And we have not been flying this in the 
JIATF-South area. We have been actually flying this in the 
Arizona border. And I mention this because that aircraft 
crashed yesterday morning on a mission.
    Mr. Ruppersberger. Is that the aircraft right there?
    General Kostelnik. No, sir. I wondered about that when I 
came in, but actually ours is laying out in the desert, and I'm 
sure on the media this afternoon or tomorrow you will be able 
to see photos. But it's a Predator B. It's a large and 
sophisticated UAV. It is a good value. With all the sensors, 
which include not only electro-optical and infrared, but also 
synthetic aperture radar. It's about a $6.8 million asset. We 
purchased this system last year as part of a beginning of a UAV 
fleet which we intend to grow. We've been operating it in the 
desert.
    Mr. Ruppersberger. So you are getting them now? I mean, the 
Navy might not, DOD--you are not there--but you actually are 
getting them?
    General Kostelnik. We've been flying one for a year. We've 
purchased a second one, which we accept in August.
    Mr. Souder. Is the one that wrecked the one?
    General Kostelnik. This is the one, yes.
    Mr. Souder. So we have zero, but we have more coming?
    General Kostelnik. Nothing flyable. We get a second one in 
August, we get our--we have money in 2007, in the budget, to 
buy a third. In our long-term future, we would add more of 
these assets focused on the U.S. borders, but not just the 
south; also in the coastal regions. And these aircraft can fly 
for 30 hours. They're not in the same class as a Global Hawk, 
but they would have some applications in certain areas, 
certainly the Caribbean and some of the closer-in transit area 
zones.
    Mr. Souder. When one wrecks like that, do you automatically 
resubmit for another? Is there a process? Or does this mean you 
are just down?
    General Kostelnik. Well, these vehicles are so popular, 
actually, that the supply--General Atomics makes this vehicle. 
The Air Force have been users. In fact, you may have seen 
Predator A's in Iraq. There are multiple U.S. users overseas of 
these vehicles. We fly the Predator B, which is the newest--it 
is the larger version, with a 60-foot wingspan. So this is not 
an insignificant vehicle.
    We're actually delayed waiting to get our second one in 
August because of competition with the U.S. Navy, which is also 
procuring these. The Coast Guard have looked at these in the 
past for the near coastal region; they're looking for other 
types of UAVs in their mission----
    Mr. Ruppersberger. Probably Rumsfeld is more powerful than 
Chertoff right now.
    General Kostelnik. Sir?
    Mr. Ruppersberger. No. [Laughter.]
    General Kostelnik. Well, the point is we will certainly 
replace this one with one next year. And again, much like the 
prototype issue on the P3, this last year of experience has 
given us unique exposure to how to use these things. In fact, 
we started flying this vehicle on about September 1st. It flies 
typically from 5 p.m., till 7 a.m. It will do multiple 
missions. It has a man in the loop mode, so you can bring the 
man into the local scenario virtually. So it is not just a 
program.
    Mr. Ruppersberger. Are you looking mostly for watercraft? 
Is that what you are doing? Everything? I mean, location----
    Mr. Souder. Well, part of the fundamental problem we have 
here is they have none, and that they had one and it wrecked, 
and we are in line to get the second one.
    Mr. Ruppersberger. You didn't have insurance? [Laughter.]
    Mr. Souder. But the challenge here is that now we are in 
line to get the second one. And as I understood the answer to 
your question, that we may, as you mentioned, you may not have 
the same clout as the Department of the Defense. And then the 
fundamental question is do we spend our time trying to--how 
much effort do we put into getting one of these? Meanwhile, the 
P3s can't fly. And that while we need to get that program on, 
the fact is that we have our existing program sitting while we 
are trying to get a new program started and it just went back.
    It means that when you get your--if I understand what you 
are saying--when you get your next one, we will now be back to 
where we were with this one.
    Mr. Ruppersberger. And you know what that means? That means 
there is a lot more drugs that go back on our streets again. 
Right?
    Mr. Souder. Let me ask a question on the P3s. Is that also 
a capacity of repair question, or, if you had more money, could 
they all get back up flying faster? Because one of the 
questions is, can we meet last year's drug dumpers? And the 
general consensus is that it is going to be tough because we 
have so many assets down. The Coast Guard boats are getting 
older, the P3s are down, and now we just lost our Predator.
    So is this--you said on the Predators it is a supply line 
problem. Is that also true on the maintenance of the P3s, or if 
you had additional money could we get them up, since we just 
lost our Predator?
    General Kostelnik. Well, sir, there are limited places in 
the country where you can do this kind of work with experienced 
personnel for these systems. And so it really isn't an issue of 
money. We have more than enough money to fix this problem. And 
I understand----
    Mr. Ruppersberger. But you don't have enough vehicles, 
though.
    General Kostelnik. We have 16 vehicles. And if you looked 
at--when everything was--with the people we have and the 
resources we have, we are very close between either being 
limited by the pilots we have to fly the aircraft we have or 
the money for the fly time. It is very close. And above that, 
there is more capacity in flying hours for the 16 aircraft we 
have. So we could fly more hours if we had more pilots and the 
money to go along with that. It's a marginal amount, though. If 
you wanted to increase the coverage substantially, then that 
would require----
    Mr. Ruppersberger. Let's get into that. Because more 
pilots--we have pilots all over the place. I mean, there are 
National Guard pilots, there are pilots. I mean, who are your 
pilots now?
    General Kostelnik. Well, we have a combination of pilots, 
depending on the mission. On the Border Patrol, their 
requirements are very stringent--Spanish speakers, Border 
Patrol experience, Border Patrol graduates. On the P3 side, we 
typically assess former military pilots, sometimes the Navy for 
P3s, and the Army for our helicopters. And then we send them to 
law enforcement training because, realizing we're in this 
business, all of our pilots are----
    Mr. Ruppersberger. Do you have a program in place that is 
dealing with recruiting of pilots right now?
    General Kostelnik. We do when we are hiring. We have not 
been in a hiring mode over the last several years because we've 
been trying to figure out the merger and the strategic way 
ahead. In fact, this year----
    Mr. Ruppersberger. So the bureaucracy is slowing everything 
down, is what you are telling me? Come on, that really there is 
a system--if you are telling me that we can't hire now but we 
are not sure. And I am not blaming you. I am just saying the 
system is broke. Because the drugs are not stopping; they are 
continuing to go on. So we really have a lot of work to do, I 
think, as far as prioritizing on the resources that you need. 
And what you are telling me, I think, that aircraft--you are 
doing well on intelligence because I think, you know, you have 
more technology and you are using it.
    So we have a lot of work to do in that regard. And again, 
it is not your fault. You are getting the money, you have to 
deal with it, with what we need to deal with. But it is 
something that we have to really, seriously get these 
priorities together. And if you could be a little more 
specific, I would appreciate it.
    Do you also have--do you deal with the issue of containers?
    General Kostelnik. No, sir, that's the Office of Field 
Operations. Those are the port of entry----
    Mr. Ruppersberger. OK, I just want to--OK.
    General Kostelnik [continuing]. U.S. Customs----
    Mr. Ruppersberger. But if you do know what percentage is 
coming in of the drugs, say, into the United States would be 
through containers versus, you know, the Mexico or that line, 
and water and air and that--all those different areas.
    General Kostelnik. I would take that question for the 
record and provide a response. I don't know if any of my 
colleagues here could answer that question. But I could tell 
you what we're finding----
    Mr. Ruppersberger. Ten percent, 15, 20--what?
    General Kostelnik. I couldn't hazard a guess. It is not my 
area of expertise.
    Mr. Ruppersberger. Does DEA or ONDCP have that estimate--
rough, ballpark?
    Mr. Braun. It's--I feel safe in saying it's a great unknown 
right now. We've got some initiatives under way to try to fill 
that intelligence gap. But it's a gap.
    Mr. Ruppersberger. Because here we go again. We have all 
these different agencies--CIA, NSA, FBI, military--all working 
on trying to develop the port security. And, really, a lot of 
it is about the port of embarkation and the system we need to 
put together, which Customs deals a lot with that and ICE and 
all those different areas. It seems to me that some of the same 
things we are doing in the fight against terrorism, we could do 
the same thing and get the same information out to our analysts 
and then get it to you all. It could be one group that gets it 
on the terrorist information, the drug information, because it 
is all there at the same time.
    Yes?
    Mr. Braun. Sir, I can add this, and should add this. The 
intelligence tells us this clearly, that the major drug 
trafficking organizations, it's not a preferred method of 
smuggling because they lose control, constructive or otherwise, 
or direct control of the load. Once it's placed in that 
container and until it lands where it's, you know--it docks 
where it's supposed to dock, they've got no control over it 
whatsoever.
    Mr. Ruppersberger. Right. And the only reason I ask that, I 
am trying to find out whether it is worth trying to focus on 
that, because we are doing a lot in the airport security. And 
because it was a big issue, it just called attention to port 
security. And I think, hopefully, there will be more money 
coming in that arena, one that we could take advantage of.
    How about you, Admiral?
    Admiral Justice. Sir, thank you.
    Mr. Ruppersberger. By the way, I do want to say to the--I 
didn't really work with the Coast Guard until I came to 
Congress, and I have a Coast Guard yard in my district and deal 
a lot with Sloan, who is your intelligence person. But you 
really have an outstanding agency. I don't think the public 
knows how good the Coast Guard is. The leadership, the men and 
women on the front line, what you have to do in all your areas 
of jurisdiction, it is amazing that you do so well. And then 
when you were put on the line, just like our men and women 
throughout the world, say, in Louisiana, you produced. So I 
just want to say that.
    Admiral Justice. Thank you, sir. I appreciate that.
    Mr. Ruppersberger. Now do you want to know the bad news?
    Admiral Justice. Oh, yes, sir. We are at year 4 of a 25-
year recapitalization. We call it our Deepwater Program. It is 
no news to you, sir, but last year was a significant effort to 
get the President's funding request. And we got it, and we've 
moved forward. And I can talk--in the 2007 budget, as our 
Deepwater request for this year is in front of you, there are 
more C130J hours, more C130H hours, contracts logistics----
    Mr. Ruppersberger. But what are you using the C130's for, 
then?
    Admiral Justice. Those are the four engines, long range----
    Mr. Ruppersberger. I know what they are but I mean----
    Admiral Justice. I am sorry.
    Mr. Ruppersberger [continuing]. What are you using them 
for?
    Admiral Justice. Counter-drug, counter-migrant. It is put 
specifically in the Transit Zone. Alongside the P3s, I would 
submit, those are the backbone of our MPA issue.
    Mr. Souder. They move the Coast Guard boats that have the 
helicopters on them; one of the ways they move them is through 
the C130's from Jacksonville down and into the Zone. Is that 
correct?
    Admiral Justice. That's correct. So we are definitely 
committed to moving forward, having more fixed-wing aircraft 
available. It's in our budget to do that. We're also bringing 
online our first--they're CASA. They're a new, mid-range type 
of aircraft which will allow the remaining fixed-wing larger 
ones to work down south.
    My request is Deepwater funding, at the President's 
request, and it will absolutely support this mission and move 
it forward.
    Mr. Ruppersberger. OK. Admiral, I am glad you are here from 
Colombia. It seems to me from my tour in Colombia about 8 
months ago--we have a vote soon--that you have a strong 
eradication program. You took a bunch of us to a field and I 
know that there are a lot of priorities in that regard. Also, 
that UAVs, based on your country and the territory, could be 
extremely helpful, and especially dealing with the FARC and 
certain other areas, and then you have the drug cartels. Where 
are you right now as far as your eradication program and what 
do you feel you need from us from a priority point of view, 
after what you have heard these gentlemen say here today?
    Because, what is the percentage coming from Colombia now, 
in the United States?
    Mr. O'Gara. About 75 percent.
    Mr. Ruppersberger. OK, cocaine and heroin? Or just cocaine?
    Mr. O'Gara. Heroin has been down. We were unable to produce 
a heroin estimate for 2005. It's the majority, typically.
    Admiral Echandia. Sir, I'm not an expert in eradication. 
We're more on the coast, on the rivers, and much more in labs, 
laboratories, and interdiction. But talking with my colleagues 
from the National Police, who are the people who run the 
eradication, they said that they need more resources, more 
planes, for spraying the crops of coca. Now they have plants 
that give five crops in a year. It used to be three, then four, 
now five. So they become more and more and more efficient.
    But for the sea and for the rivers, the solution that we 
bring today is a very modest solution. It's using DC-3s 
refurbishing its frame, and with brand-new engines. And the 
program that we have here is $26 million for two of those 
frames, aircraft, with the right equipment to detect all. The 
go fast--the fishing boats, the submergibles. That is the 
problem. And you see here it's an idea that we have in 
interdiction. We put everything. But if we put those small 
planes, the DC-3s, we can fly 10 hours. It's a very modest 
aircraft. It costs only $400 an hour to fly. It's very cheap 
and can fly for 10 hours. So we can stay on a station a long 
time and we can control the territorial seas.
    Mr. Ruppersberger. I want to ask, Mr. Chairman. We are 
sitting here testifying, and we talked about priorities, if you 
could come together and get information to the chairman and we 
could set about priorities and what we can do to try to deal 
with this issue, because it is a serious problem. And the way I 
look at it, it's going to get worse, because I see less funding 
going into this.
    Mr. Souder. Before I yield to Ms. Watson, I have--I was 
very generous on the time here, but now we are up against the 
wall. We have two 15-minute votes filed by 5, there is----
    Mr. Ruppersberger. Did they call them already?
    Mr. Souder. Yes. And you have been very patient. So we are 
going to have to adjourn the hearing. But I need to make a 
couple of things in the record here and then I will yield to 
Ms. Watson for a last comment.
    Ms. Watson. Let me just submit my questions. I will submit 
my questions for the record.
    [The prepared statement of Hon. Diane E. Watson follows:]

    [GRAPHIC] [TIFF OMITTED] T0898.053
    
    [GRAPHIC] [TIFF OMITTED] T0898.054
    
    [GRAPHIC] [TIFF OMITTED] T0898.055
    
    Mr. Souder. Thank you very much for coming. I thought we 
were going to not vote till 6 p.m., so I was being fairly 
casual. What I need to do is, first off, for ONDCP, I am going 
to insert the questions in the record that Senator Grassley 
sent to Director Walters.
    We are increasingly angry at false information that has 
been consistently given to us on data. Those of us who go to 
the House and Senate floors are getting exasperated that there 
are a number of questions--like in Boston on heroin prices--we 
are told one thing. David Murray wrote an article. One thing 
that contradicted what we had been told here, that the ONDCP 
submitted a chart and a footnote that said, not to use--they 
quoted numbers that their own reports say not to quote, in 
order to try to make their case. These are very specific 
questions because they relate to a bigger question. We don't 
believe anything.
    I mean I am saying this as a Republican right now. I am so 
angry at going down to the House floor and saying, ``This is 
what we are doing in Colombia,'' and then every year some 
explanation. At this point, we don't know what to believe, that 
the fact is we can see more, but then we should have been told 
point blank that we couldn't see it. Instead, we acted like we 
were getting a higher and higher percentage of eradication, and 
we didn't know. That should have been noted and led with, and 
instead, we go make these different statements, when in fact, 
now we are being told that not only were we wrong on this 
year's projections by huge amounts in Colombia, which forces us 
to go to the House floor with that, but it is going to 
increase.
    We go to Afghanistan, supposedly our success story, heroin 
as far as the eye can see. We are told we are doing hand 
eradication, and they got one in and it is not clear they are 
going to get two more, the poppies coming off, and the question 
is, what in the world are we doing? And they say, ``Well, we 
thought we were up in the northern province. We didn't know it 
was going all over in the southern province.'' Well, then tell 
us that at the beginning. If you need more resources, tell us 
you need more resources. Part of the argument--and I know this 
from discussions--is everybody gets sat on because part of your 
concern is OMB doesn't want to come to Congress and say, ``Oh, 
we need more money.'' Look, as a Republican, I am voting for 
some pretty tough budgets, but I would like to know when I am 
trading off.
    If I am having to go home and tell the people that I can't 
increase their Medicare this much, then I need to be able to 
say that it is a tradeoff because Deepwater is this much, and 
this is how much cocaine we are missing, versus this, and money 
doesn't grow on trees and I have to prioritize. But if we can't 
get what your priorities are and what we are missing, then we 
as politicians can't do the tradeoffs because you are depriving 
us of the information.
    Now, I would like for the record for the Drug Czar's 
Office, ONDCP, to say, are you openly advocating and willing to 
go on the record that we need more funds for Deepwater, that we 
need to make sure that this Predator gets replaced, and the 
second that went down, did Director Walters call over and say, 
``I'm going to battle to see that I get up there because kids 
are going to die in the street.'' While you're theoretically 
doing different things in the narcotics, if we don't have these 
type of things, we're in deep trouble. Or is this just kind of 
some quiet pre-decisional thing that ONDCP will never go on 
record as the drug office, arguing inside the bureaucracy?
    The whole reason we created the Drug Czar's Office was to 
be an advocate for the other areas. We are sitting here on the 
House floor arguing for an oiler, and we never hear any back 
behind us. We watched the Department of Defense, before 
September 11th, put narcotics down below, and we were already 
having this battle prior to September 11th, and more and more 
assets moving out, and then we don't have the support.
    Now, questions I have--and we will submit in record--for 
ICE, because ICE is telling us we had a good discussion about 
the transit zone, and we may have a few questions on the 
transit zone. Yesterday we did not talk about the Mexican 
border. We did not talk about whether there was going to be Air 
and Marine support. ONDCP's testimony said that ICE is 
important to the investigation, but in fact, none of the 8 ICE 
people in Mexico are working with investigations. The question 
for the ICE people--and this is different, because it looks to 
me, and sounds to me--and this is kind of the fundamental 
question will have some things behind it for the DHS--is in the 
Air Marine Division, it sounds like you are holding some of the 
traditional functions, as much as possible, in the transit zone 
question.
    The question is: Is Air and Marine, as it relates to the 
southwest border--not the southeast--how is it going to be 
transformed? And we will have some questions about how the air 
is going to work there, how that division, is that going to be 
picket fence or is it going to be able to be fungible like the 
division over in the southeast? Those are fundamental 
questions.
    We may have some additional questions on the Coast Guard as 
to what the status of the assets is, where in the East Pacific, 
how does Deepwater specifically affect the narcotics efforts in 
the Coast Guard? I have a series of questions here.
    Also in DEA, some nuances with the different assets that we 
need to deploy, and where in the areas particularly in Central 
and South America the DEA needs boosting up? In Afghanistan we 
kind of know what the problem is, the military owns that. The 
DEA is at the mercy, more or less, of the military support, and 
the Brits are supposed to be running the operation, and I 
caused enough ruckus over in Kabul to last us for a little 
while. And so we will continue to push that.
    And then watch for emerging areas, that clearly we have to 
have the Europeans. We have some followup questions on what 
happened since the Dutch sold the Germans their P-3s in the 
Caribbean. Are the Germans going to invest in this? Colombia is 
out there, it is us and Colombia, when half of this stuff is 
going over to Europe. Where are the Germans? Where are the 
French? Where are the other countries in Europe, because it is 
partly their problem too. So we will have some written 
questions.
    That said, and Congresswoman Watson will too, and others on 
our committee.
    Thank you for your patience and the start today with the 
votes. Sorry we had to cut it off. I am not sure you are all 
sorry. [Laughter.]
    But I am sorry that I didn't get a chance to put some of 
these, and we will do these, in the record.
    Once again, thank you all for your service. We are all on 
the same side here, but we need to be aggressive or we are 
going to get squeezed in the competitive funding competition as 
we move in for priorities of the United States, and narcotics 
remain the No. 1 source of crime, the No. 1 source of family 
violence, and the No. 1 source of death in the United States. 
And it is not a hypothetical; it is real, as your agencies full 
well know.
    Thank you for your service. With that, the subcommittee 
stands adjourned.
    [Whereupon, at 4:57 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T0898.059

[GRAPHIC] [TIFF OMITTED] T0898.060

[GRAPHIC] [TIFF OMITTED] T0898.061

[GRAPHIC] [TIFF OMITTED] T0898.062

[GRAPHIC] [TIFF OMITTED] T0898.063

[GRAPHIC] [TIFF OMITTED] T0898.064

[GRAPHIC] [TIFF OMITTED] T0898.065

[GRAPHIC] [TIFF OMITTED] T0898.066

[GRAPHIC] [TIFF OMITTED] T0898.067

[GRAPHIC] [TIFF OMITTED] T0898.068

[GRAPHIC] [TIFF OMITTED] T0898.069

[GRAPHIC] [TIFF OMITTED] T0898.070

[GRAPHIC] [TIFF OMITTED] T0898.071

[GRAPHIC] [TIFF OMITTED] T0898.072

[GRAPHIC] [TIFF OMITTED] T0898.073

[GRAPHIC] [TIFF OMITTED] T0898.075

[GRAPHIC] [TIFF OMITTED] T0898.076

[GRAPHIC] [TIFF OMITTED] T0898.077

[GRAPHIC] [TIFF OMITTED] T0898.078

[GRAPHIC] [TIFF OMITTED] T0898.079

[GRAPHIC] [TIFF OMITTED] T0898.080

[GRAPHIC] [TIFF OMITTED] T0898.081

[GRAPHIC] [TIFF OMITTED] T0898.082

[GRAPHIC] [TIFF OMITTED] T0898.083

[GRAPHIC] [TIFF OMITTED] T0898.084

[GRAPHIC] [TIFF OMITTED] T0898.085

[GRAPHIC] [TIFF OMITTED] T0898.086

[GRAPHIC] [TIFF OMITTED] T0898.087

[GRAPHIC] [TIFF OMITTED] T0898.088

[GRAPHIC] [TIFF OMITTED] T0898.089

[GRAPHIC] [TIFF OMITTED] T0898.090

[GRAPHIC] [TIFF OMITTED] T0898.091

[GRAPHIC] [TIFF OMITTED] T0898.092

[GRAPHIC] [TIFF OMITTED] T0898.093

[GRAPHIC] [TIFF OMITTED] T0898.094

[GRAPHIC] [TIFF OMITTED] T0898.095

[GRAPHIC] [TIFF OMITTED] T0898.096

[GRAPHIC] [TIFF OMITTED] T0898.097

[GRAPHIC] [TIFF OMITTED] T0898.098

[GRAPHIC] [TIFF OMITTED] T0898.099

[GRAPHIC] [TIFF OMITTED] T0898.100

[GRAPHIC] [TIFF OMITTED] T0898.101

[GRAPHIC] [TIFF OMITTED] T0898.102

[GRAPHIC] [TIFF OMITTED] T0898.103

[GRAPHIC] [TIFF OMITTED] T0898.104

[GRAPHIC] [TIFF OMITTED] T0898.105

[GRAPHIC] [TIFF OMITTED] T0898.106

[GRAPHIC] [TIFF OMITTED] T0898.107

[GRAPHIC] [TIFF OMITTED] T0898.108

[GRAPHIC] [TIFF OMITTED] T0898.109

[GRAPHIC] [TIFF OMITTED] T0898.110

[GRAPHIC] [TIFF OMITTED] T0898.111

[GRAPHIC] [TIFF OMITTED] T0898.112

[GRAPHIC] [TIFF OMITTED] T0898.113

[GRAPHIC] [TIFF OMITTED] T0898.114

[GRAPHIC] [TIFF OMITTED] T0898.115

[GRAPHIC] [TIFF OMITTED] T0898.116

[GRAPHIC] [TIFF OMITTED] T0898.117

[GRAPHIC] [TIFF OMITTED] T0898.118

[GRAPHIC] [TIFF OMITTED] T0898.119

[GRAPHIC] [TIFF OMITTED] T0898.120

[GRAPHIC] [TIFF OMITTED] T0898.121

[GRAPHIC] [TIFF OMITTED] T0898.122

[GRAPHIC] [TIFF OMITTED] T0898.123

[GRAPHIC] [TIFF OMITTED] T0898.124

[GRAPHIC] [TIFF OMITTED] T0898.125

[GRAPHIC] [TIFF OMITTED] T0898.126

[GRAPHIC] [TIFF OMITTED] T0898.074

                                 <all>

</pre></body></html>
